                  OFFICE OF
                  INSPECTOR
                  GENERAL
U.S. Securities
                  SEMIANNUAL
and Exchange
 Commission
                  REPORT TO
                  CONGRESS




                   October 1, 2007 - March 31, 2008
Organizational Chart                                                      Office of Inspector General



                                            Inspector General



                                                    Deputy                    Assistant Inspector
                                              Inspector General               General for Audits
                                                   (vacant)
    Counsel to the
  Inspector General




              Senior
                            Special Agent
           Investigator



           Investigator      Investigator

                                                   Legal                     Audit               Audit
                                                  Assistant                 Manager             Manager


                                                                             Audit               Audit
                                                                            Manager             Manager


                           Administrative                Administrative                Audit
                          Support Assistant                 Officer                   Manager
October 1, 2007 - March 31, 2008
                                                                   OFFICE OF
                                                                   INSPECTOR
                                        U.S. Securities
                                        and Exchange
                                                                   GENERAL
                                         Commission
                                                                   SEMIANNUAL
                                                                   REPORT TO
                                                                   CONGRESS
                                   Mission
                                       The mission of the Ofﬁce of Inspector General is to promote the integrity, efﬁciency, and
                                   effectiveness of the critical programs and operations of the Securities and Exchange
                                   Commission. This mission is best achieved by having an effective, vigorous and independent
                                   ofﬁce of seasoned and talented professionals who perform the following functions:  


                                   •     Conducting independent and objec-           •   Offering expert assistance to improve
                                          tive audits, evaluations, investigations,        Commission programs and opera-
                                          and other reviews of Commission                  tions;
                                          programs and operations;                    •   Communicating timely and useful in-
                                   •     Preventing and detecting fraud, waste,           formation that facilitates management
                                          abuse, and mismanagement in Com-                 decision-making and the achievement
                                          mission programs and operations;                 of measurable gains; and
                                   •     Identifying vulnerabilities in Commis-      •   Keeping the Commission and the
                                          sion systems and operations and rec-             Congress fully and currently informed
                                          ommending constructive solutions;                of signiﬁcant issues and developments.
U.S. Securities and Exchange Commission

                                                                                 SEMIANNUAL
                                                                                 REPORT TO
                                                   Ofﬁce of
                                                  Inspector
                                                   General
                                                                                 CONGRESS
                                          CONTENTS
                                          MESSAGE FROM THE INSPECTOR GENERAL	.............................................................. 1

                                          MANAGEMENT AND ADMINISTRATION	........................................................................ 5
                                          	 	       Agency Overview	.............................................................................................................. 5
                                          	 	       OIG Staffing	...................................................................................................................... 5

                                          RESPONSES TO CONGRESSIONAL INQUIRIES	........................................................... 7

                                          ADVICE AND ASSISTANCE PROVIDED TO THE AGENCY	.............................................9
                                          	   	     Performance Management Policy	..................................................................................... 9
                                          	   	     Workplace Violence Prevention	....................................................................................... 10
                                          	   	     Misuse of Computer Resources	..................................................................................... 10
                                          	   	     Security Enhancements in Parking Garage	..................................................................... 12

                                          AUDITS AND INSPECTIONS ........................................................................................
                                                                              	                                                                                        13
                                          	 OVERVIEW	................................................................................................................. 13
                                          	 SUMMARY OF AUDITS AND INSPECTIONS	............................................................ 13
                                          	   	     Background Investigations (Inspection Report No. 434)	.................................................. 13
                                          	   	     Student Loan Program (Audit Report No. 439)	................................................................15
                                          	   	     Oversight of Receivers and Distribution Agents (Inspection Report No. 432)	................... 16
                                          	   	     Self-Regulatory Organization Rule Filing Process (Audit Report No. 438)	........................ 17
                                          	   	     Controls Over Laptops (Inspection Report No. 441)	........................................................ 19
                                                  Usefulness of Investment Management’s Website (Inspection Report No. 436)............... 19
                                          	   	     Enterprise Architecture Assessment (Inspection Report No. 442)	.................................... 20
SEMIANNUAL REPORT TO CONGRESS   INVESTIGATIONS	........................................................................................................... 23
                                	 OVERVIEW	.................................................................................................................. 23
                                	 INVESTIGATIONS AND INQUIRIES CONDUCTED	..................................................... 24
                                	   	     Investigations of Perjury by Supervisory Attorneys	........................................................... 24
                                	   	     Investigation of Disruptive Behavior by a Senior Manager	................................................. 26
                                	   	     Investigation of Misrepresentation of Professional Credentials and
                                	   	     	   Misuse of Computer Resources	................................................................................ 26
                                	   	     Investigation of Time and Attendance Abuse	................................................................... 27
                                	   	     Investigation of Misuse of Government Parking Permit	..................................................... 27
                                	   	     Investigations of Misuse of Computer Resources to View Pornography	............................28
                                	   	     Investigations of Misuse of Government Resources and Time to
                                	   	     	   Operate Private Businesses	...................................................................................... 31
                                	   	     Investigation of Assault by Contract Employee	................................................................. 32

                                OTHER INQUIRIES CONDUCTED	.................................................................................. 32
                                	
                                PENDING INVESTIGATIONS AND INQUIRIES	............................................................... 33

                                REVIEW OF LEGISLATION AND REGULATIONS	........................................................... 37

                                STATUS OF RECOMMENDATIONS WITH NO MANAGEMENT DECISIONS	................. 39

                                REVISED MANAGEMENT DECISIONS	.......................................................................... 39

                                AGREEMENT WITH SIGNIFICANT MANAGEMENT DECISIONS	.................................. 39

                                INSTANCES WHERE INFORMATION WAS REFUSED	................................................... 39

                                TABLES
                                	 1	      List of Reports: Audits and Inspections ...........................................................................
                                                                                  	                                                                           41

                                	 2	      Reports Issued With Costs Questioned or
                                	 	       Funds Put to Better Use (Including
                                	 	       Disallowed Costs)	............................................................................................................ 43

                                	 3	      Reports With Recommendations on Which
                                	 	       Corrective Action Has Not Been Completed	.................................................................... 45

                                	 4	      Summary of Investigative Activity	..................................................................................... 49

                                	 5	      Summary of Complaints Received	................................................................................... 51

                                	 6	      References to Reporting Requirements of
                                	 	       the Inspector General Act	................................................................................................ 53
SEMIANNUAL REPORT TO CONGRESS
                                                   Message from the
                                                   Inspector General
                                                   I am very honored to have been appointed to the position of Inspector General
                                                   for the U.S. Securities and Exchange Commission (SEC or Commission) on
                                                   December 24, 2007. I am further honored to be engaged in the important work
                                                   of the SEC Ofﬁce of Inspector General (OIG), which plays the vital role of
                                                  guardian of integrity and efﬁciency in the SEC and protector of the public trust
                                against fraud, waste and abuse.

                                    We have made a great deal of accomplishments over the past several months, and much work
                                remains to be done. We are committed to working with the Commission to address its management
                                challenges and to ensure the efﬁciency, effectiveness and integrity of agency operations. I strongly
                                believe that a vibrant and vigorous Ofﬁce of Inspector General is critical to achieving these goals.

                                    During this reporting period, our auditors issued several reports on a variety of issues and
                                subjects that are essential to Commission programs and operations. We initiated an inspection of
                                the Commission’s Personnel Security/Suitability Program based on complaints we received from
                                Commission ofﬁcials regarding signiﬁcant delays in processing background investigations, and
                                information acquired during prior OIG audits. We found that signiﬁcant organizational issues were
                                preventing the Commission from having an effective program, and that the Commission did not
                                comply with key requirements of a Homeland Security Presidential Directive and Ofﬁce of
                                Management and Budget guidance. We recommended that the Commission develop comprehensive
                                operating procedures, create an information system to track work processes, evaluate and restructure
                                staff resources, and acquire appropriate work and storage space to ensure the Personnel Security/
                                Suitability Program operates in an efﬁcient and effective manner.

                                    We also conducted an audit of the agency’s student loan repayment program, under which
                                agency employees may receive payment of their outstanding loan balances for Federally insured or
                                guaranteed student loans up to $10,000 annually and $60,000 overall, as a recruitment and retention
                                incentive. According to the Ofﬁce of Personnel Management, in FY 2006, the Commission awarded
                                more funds in total than any other agency in the Federal government, except for the Department of
                                Justice, Department of Defense, and Department of State. In addition, the Commission paid more
                                money per recipient than any other Federal agency that had a signiﬁcant number of recipients. Our
                                audit found that several aspects of the student loan repayment program needed signiﬁcant
                                improvement. We found a number of weaknesses in the program’s internal controls and identiﬁed
                                12 employees who left the Commission and were required to repay $129,336 in total to the student
                                loan program because the terms of the service agreements had not been met. As a result of our
                                audit, the Commission has instituted efforts to collect these funds.




                                                                                                                                       1
SEMIANNUAL REPORT TO CONGRESS       We also conducted several audits and inspections relating to the Division of Enforcement’s
                                coordination with receivers and other third party agents, the Commission’s process for reviewing
                                Self-Regulatory Organization proposed rule changes, the Ofﬁce of Information Technology’s
                                controls over laptops, and the usefulness of a Commission Intranet site. In all of these cases, our
                                reports identiﬁed signiﬁcant issues and made numerous recommendations designed to improve
                                agency processes and operations. These recommendations were well-received by management
                                and are being implemented.

                                     In investigative matters, I have instituted new procedures that will allow for more thorough,
                                comprehensive and substantive investigations. These procedures include ensuring that the
                                complainant is interviewed ﬁrst and on the record whenever feasible, that signiﬁcant interviews of
                                complainants, subjects and critical witnesses be conducted under oath and on the record with a
                                full transcript as appropriate, that perjury warnings be provided to subjects and/or witnesses
                                being interviewed where there is any possibility or indication that full and truthful testimony
                                might not be given, and that assurances of conﬁdentiality be given to potential witnesses who
                                have expressed reluctance to come forward in an ofﬁcial investigation. Our reports of
                                investigation have been modiﬁed to provide for speciﬁc ﬁndings and recommendations, including
                                whether the OIG believes disciplinary action should be taken. We have also requested that
                                management inform us of disciplinary action taken in response to a report of investigation within
                                45 days of issuance of the report and have followed up with management both prior to and at the
                                45-day mark.

                                    We have also increased our investigative staff by over forty percent. One of our investigators
                                has recently been deputized by the U.S. Marshals Service in order to increase the OIG’s authority
                                in pursuing criminal investigations. In addition, during the reporting period and after a
                                competitive procurement process, we entered into a contract with an outside vendor to establish
                                and operate an OIG Hotline that will include a toll-free number that can be called 24 hours a
                                day, 365 days a year, as well as a web-based system through which complaints may be made
                                anonymously or in conﬁdence. This arrangement will encourage and facilitate the reporting of
                                complaints to our Ofﬁce. We also began work on a wholesale redesign of the OIG website to
                                make it more complete, informative, professional in appearance and useful to the public. We
                                anticipate the redesign to be ﬁnalized during the next reporting period.

                                    On February 27, 2008, the OIG entered into a Memorandum of Understanding (MOU) with
                                the Commission’s Ofﬁce of Information Technology (OIT), wherein OIT recognized the
                                importance and urgency of OIG investigative requests for e-mails and other information
                                technology support. In the MOU, OIT provided written assurance that all OIG requests for e-
                                mails will receive the highest priority among Commission e-mail requests and agreed to provide
                                computer forensic and other technical support as requested. As a consequence of the MOU, the
                                OIG has been able to obtain employee e-mails needed for investigations much more quickly than
                                in the past.




                         2
SEMIANNUAL REPORT TO CONGRESS       The changes described above have resulted in the issuance of numerous investigative reports
                                regarding signiﬁcant issues, such as perjury by supervisory attorneys, misuse of government
                                equipment and resources, disruptive conduct in the workplace on the part of a senior ofﬁcial, and
                                the misrepresentation of professional credentials. I have personally taken on the investigations of
                                several high-proﬁle matters and made signiﬁcant progress on these cases during the reporting
                                period.

                                    The accomplishments of our Ofﬁce have been enhanced by the support of the SEC
                                Chairman, Chief of Staff, Executive Director, management team and employees. I look forward
                                to continuing this productive and professional working relationship as we help the SEC meet its
                                important challenges.


                                   	           	      	       	       	      	       	

                                   	           	      	       	       	      	       	
                                   	           	      	       	       	      	       	       H. David Kotz
                                   	           	      	       	       	      	       	       Inspector General




                                                                                                                                  3
4
U.S. Securities and Exchange Commission

                                                                     SEMIANNUAL
                                                Ofﬁce of
                                                                     REPORT TO
                                               Inspector
                                                General
                                                                     CONGRESS
                                          MANAGEMENT AND
                                          ADMINISTRATION
                                          AGENCY OVERVIEW                                       In order to accomplish its mission most
                                                                                            effectively and efﬁciently, the SEC is organized
                                              The United States Securities and              into four main divisions (Corporation Finance,
                                          Exchange Commission (SEC or Commission)           Enforcement, Investment Management, and
                                          aims to be the standard against which Federal     Trading and Markets), and also has 18
                                          agencies are measured. The SEC’s vision is to     functional ofﬁces. The Commission’s
                                          strengthen the integrity and soundness of the     headquarters is located in Washington, D.C.,
                                          United States securities markets for the beneﬁt   and there are 11 regional ofﬁces located
                                          of investors and other market participants, and   throughout the country. In FY 2007, the SEC
                                          to conduct its work in a manner that is as        had 3,465 full-time equivalents (FTEs),
                                          sophisticated, ﬂexible, and dynamic as the        consisting of 3,403 permanent and 62
                                          securities markets it regulates.                  temporary FTEs.

                                              The SEC’s mission is to protect investors,    OIG STAFFING
                                          facilitate capital formation and maintain fair,
                                          orderly, and efﬁcient markets. To achieve its         During the reporting period, the
                                          mission, the SEC enforces compliance with the     Commission ﬁlled the position of Inspector
                                          Federal securities laws, promotes healthy         General. The new Inspector General, H.
                                          capital markets through an effective and          David Kotz, previously served as the Inspector
                                          ﬂexible regulatory environment, fosters           General for the Peace Corps. As Inspector
                                          informed investment decision-making, and          General at the Peace Corps, Mr. Kotz was
                                          maximizes the use of human capital and            responsible for overseeing the internal
                                          technological resources. The SEC oversees the     operations of Peace Corps programs in
                                          disclosures of almost 13,000 public companies     Washington, D.C., at 11 regional ofﬁces, and
                                          and the activities of about 11,000 investment     in nearly 70 countries around the world. Mr.
                                          advisors, nearly 1000 fund complexes, and         Kotz initially joined the Peace Corps staff in
                                          5,700 broker-dealers.                             October 2002, and he also served as an
                                                                                            Associate General Counsel for several years.


                                                                                                                                           5
SEMIANNUAL REPORT TO CONGRESS       Mr. Kotz previously worked at the U.S. Agency       where she conducted ﬁnancial audits and made
                                    for International Development (USAID), where        accounting determinations for jurisdictional
                                    he was an Attorney Advisor in the Ofﬁce of the      utility companies. From 2001-2007, Ms. Wilson
                                    General Counsel and later a Chief in the Ofﬁce      worked as an Audit Manager in the Ofﬁce of
                                    of Labor and Employee Relations. Prior to his       Inspector General (OIG) at the Defense
                                    government service, Mr. Kotz worked at three        Intelligence Agency, Department of State, and
                                    law ﬁrms: Pepper Hamilton LLP in                    the Pension Beneﬁt Guaranty Corporation,
                                    Washington D.C.; Stults & Balber, P.C., in New      where she supervised teams that conducted
                                    York City; and Graham & James in New York           complex performance and ﬁnancial related
                                    City. Mr. Kotz graduated cum laude from the         audits and reviews of agency activities and
                                    University of Maryland in 1987 with a B.A. in       operations. From 2007-2008, she served as the
                                    Government and Politics, and earned his J.D. at     Financial Audit Branch Chief for the Defense
                                    Cornell Law School in 1990.                         Information Systems Agency OIG. Ms. Wilson
                                                                                        earned a Bachelor of Science degree in Labor
                                        This reporting period also marked the           Relations from the University of Wisconsin-
                                    retirement of the Deputy Inspector General,         Parkside in 1984 and a Master of Business
                                    Nelson Egbert, and the adding of several new        Administration degree in Accounting from
                                    positions in the ofﬁce, including the position of   Hawaii Paciﬁc University in 1993.
                                    Assistant Inspector General for Audits, which
                                    was ﬁlled by Jacqueline Wilson in March 2008.           In addition, we hired an Administrative
                                    Ms. Wilson served on active duty in the U.S. Air    Support Assistant, Teresa Supples, and are
                                    Force from 1986-1995, and began her career in       ﬁnalizing the addition of two investigators and a
                                    the Federal government in 1995 working as a         legal assistant.
                                    senior auditor at the Federal Energy Regulatory
                                    Commission, Ofﬁce of Chief Accountant,




                                6
U.S. Securities and Exchange Commission
                                                                     SEMIANNUAL
                                                Ofﬁce of
                                                                     REPORT TO
                                               Inspector
                                                General
                                                                     CONGRESS

                                          RESPONSES TO
                                          CONGRESSIONAL INQUIRIES
                                              During the reporting period, the OIG          On February 13, 2008, the Inspector
                                          responded to several inquiries and requests   General provided a ten-page response to
                                          for information from Congressional            Senator Grassley, thanking him for his
                                          Committees, as well as individual members     support in connection with the Inspector
                                          of Congress.                                  General’s new duties. In response to
                                                                                        Senator Grassley’s request, the Inspector
                                               On February 4, 2008, the Inspector       General outlined a series of directives he
                                          General received a letter from Senator        had issued prescribing changes in the OIG’s
                                          Charles E. Grassley, Ranking Member of        investigative procedures, as well as changes
                                          the Senate Committee on Finance. In that      implemented to the OIG’s Ofﬁce of Audits
                                          letter, Senator Grassley congratulated the    and Inspections. The Inspector General
                                          Inspector General on his appointment,         also provided Senator Grassley with an
                                          requested a written summary of reforms to     update on the status of the OIG’s re-
                                          be undertaken by the new Inspector            investigation of the claims made by the
                                          General and offered to assist him in          former SEC attorney. (The current status of
                                          achieving his goals. Senator Grassley also    this matter is discussed in the section on
                                          requested a detailed written response from    Pending Investigations.) In that regard, he
                                          the Inspector General concerning actions      provided assurances that bringing this
                                          taken to date by the Commission in            matter to closure is among his highest
                                          response to the Senate Finance and            priorities as the new Inspector General. In
                                          Judiciary Committees ﬁnal report, issued in   addition, the Inspector General provided
                                          August 2007, on allegations of a former       detailed answers to each of the speciﬁc
                                          SEC attorney.                                 questions asked by the Senator concerning
                                                                                        the status of actions taken in response to the



                                                                                                                                     7
SEMIANNUAL REPORT TO CONGRESS   August 2007 Senate Report. Further, the            Affairs, for additional information on several
                                Inspector General agreed to follow up on           matters discussed in the OIG’s Semiannual
                                changes the Commission indicated it had            Report to Congress for April 1, 2007 to
                                implemented, and planned to implement, in          September 30, 2007. These issues included
                                response to the Report’s recommendations.          contract ratiﬁcations and unauthorized
                                The Inspector General also met with Senate         commitments, information technology
                                Finance Committee staff to discuss all of these    management, and staff performance
                                issues.                                            management. The Inspector General met with
                                                                                   Committee staff members on January 22, 2008,
                                    On December 7, 2007, the OIG received a        and provided them with detailed, written
                                request from Senator Henry A. Waxman,              information on each of the issues about which
                                Chairman of the House Committee on                 they had inquired.
                                Oversight and Government Reform. That
                                request sought speciﬁc information concerning          During the reporting period, the OIG also
                                OIG recommendations made since January             replied both verbally and in writing to several
                                2001 that had not yet been implemented. On         inquiries from Members of Congress about
                                January 30, 2008, the Inspector General            matters of interest to individual constituents.
                                provided detailed information to Chairman          These matters are discussed in the sections on
                                Waxman discussing the status of open               Investigation and Inquiries Conducted and
                                recommendations made by the OIG between            Pending Investigations and Inquiries. In one of
                                January 2001 and January 2008. The Inspector       these matters, the Inspector General met with
                                General also met with Committee staff to           the constituent and his attorney. The Inspector
                                discuss this request, as well as other pertinent   General also provided the constituent and the
                                issues.                                            Congressional ofﬁce with a letter the constituent
                                                                                   had requested concerning the OIG’s review of
                                  In addition, on December 12, 2007, the           his complaint.
                                OIG received a request from staff of the Senate
                                Committee on Banking, Housing and Urban




                           8
U.S. Securities and Exchange Commission
                                                                    SEMIANNUAL
                                                                    REPORT TO
                                                Ofﬁce of
                                               Inspector
                                                General
                                                                    CONGRESS

                                          ADVICE AND ASSISTANCE
                                          PROVIDED TO THE AGENCY
                                              During this reporting period, the OIG      adopt a new program designed to address the
                                          provided advice to management on a number      current deﬁciencies beginning in FY 2008.
                                          of serious issues that were brought to our
                                          attention. This advice was conveyed through        During this semiannual period, the OIG
                                          written communications, as well as oral        reviewed several drafts of the agency’s new
                                          brieﬁngs and meetings with agency ofﬁcials.    performance management policy and
                                          In addition to recommending improvements       provided three separate sets of substantial
                                          in existing procedures, we provided numerous   written comments. In addition, the OIG
                                          comments on policy and rule changes that       provided verbal comments on particular
                                          were being implemented as a result of OIG      aspects of the draft policy and management’s
                                          recommendations.                               revisions based on the OIG’s comments.

                                          Performance Management Policy                      The OIG was particularly concerned that
                                                                                         the draft policy did not appear to address
                                              A prior OIG audit on Enforcement           many of the recommendations for
                                          Performance Management (Audit Report No.       improvement contained in the OIG audit
                                          423, issued on February 8, 2007) found         report. These included recommendations that
                                          signiﬁcant problems with the Division of       the agency develop procedures to ensure the
                                          Enforcement’s performance management           timely completion and documentation of
                                          process and made numerous                      various performance appraisal steps. The
                                          recommendations for improvements. In           OIG stressed to management the importance
                                          response, the Executive Director stated that   of specifying in the policy the consequences
                                          the existing agency-wide performance           that will occur if a manager fails to complete a
                                          management program needed considerable         required step on time. The OIG also
                                          improvements and that the Commission would     recommended, among other things, that the
                                                                                         draft policy be revised to state clearly (1) which

                                                                                                                                         9
SEMIANNUAL REPORT TO CONGRESS        performance documents should be provided            The Inspector General met with the
                                     to the employee and when they should be         Associate Executive Director for Human
                                     provided; (2) whether, and under what           Resources and conveyed the OIG’s concerns
                                     circumstances, supplemental memoranda can       about the issue of workplace violence. In
                                     be used in the performance management           addition, the OIG provided speciﬁc
                                     process; (3) whether, and under what            comments on an updated prevention of
                                     circumstances, probationary employees may       workplace violence policy. These comments
                                     be placed on performance improvement            were considered and a revised policy was
                                     plans; (4) whether supervisors who are          issued to all agency employees on January 28,
                                     separating from the Commission must             2008. The OIG also suggested that, in
                                     prepare a written narrative on the              addition to revising the policy, management
                                     performance of employees under their            needed to implement a more comprehensive
                                     supervision; and (5) that supervisors should    workplace violence prevention program that
                                     not use reassignments to avoid addressing       included detailed procedures and training.
                                     performance problems. The OIG further           The Associate Executive Director for Human
                                     recommended that the policy be revised to       Resources agreed to work on developing such
                                     reﬂect that possible cases of employee          a comprehensive program and thanked us for
                                     misconduct should be reported to the OIG.       our input and comments on this important
                                                                                     issue.
                                         The Inspector General met with the
                                     Associate Executive Director for Human          Misuse of Computer Resources
                                     Resources regarding the substance of the
                                     OIG’s comments and discussed the OIG’s              As discussed in the investigative section
                                     concerns about the draft performance            below, the OIG developed evidence in several
                                     management policy. The Associate Executive      investigations conducted during the reporting
                                     Director for Human Resources agreed to          period that employees were misusing SEC
                                     incorporate the OIG’s comments, and the         computer resources. As a consequence, the
                                     draft policy has been revised to reﬂect the     OIG made several recommendations to
                                     OIG’s signiﬁcant comments and concerns.         management with a view toward preventing
                                                                                     this type of misconduct in the future. The
                                     Workplace Violence Prevention                   OIG also provided comments on revised rules
                                                                                     pertaining to employee and contractor
                                         During a prior reporting period, the OIG    computer use.
                                     recommended that the Ofﬁce of Human
                                     Resources (OHR) update the agency’s policy      •   On November 17, 2007, the OIG is-
                                     prohibiting workplace violence (which had not        sued a memorandum to management
                                     been updated since December 6, 1999) and             concerning the large number of re-
                                     develop formal procedures for preventing and         cent investigations showing that em-
                                                                                          ployees accessed adult pornography
                                     addressing workplace violence. Because these
                                                                                          or other inappropriate material from
                                     steps had not been completed, we followed up
                                                                                          their Commission computers, despite
                                     on these recommendations during the                  the agency’s Internet ﬁlter. The OIG
                                     reporting period.                                    made several recommendations for
                                                                                          improvements in policies and proce-
                                                                                          dures. These recommendations in-


                                10
SEMIANNUAL REPORT TO CONGRESS        cluded that management (1) update,              nesses, as well as the possible penalties
                                     consolidate and clarify the existing            for violating this prohibition.
                                     Internet usage policies and ensure
                                     their easy accessibility from the          •   Subsequent to the issuance of the
                                     Commission’s Intranet site; (2) send            memoranda described above, the
                                     reminders to all Commission employ-             agency’s Ofﬁce of Information Tech-
                                     ees and contractors that accessing or           nology (OIT) provided a draft revised
                                     downloading pornographic materials              “Rules of the Road” for the OIG’s
                                     from Commission computers is                    review and comment. The OIG pro-
                                     strictly prohibited and may result in           vided both verbal and written com-
                                     disciplinary action; (3) revise the cur-        ments on the revised draft. In written
                                     rent prohibition on accessing and               comments, the OIG, among other
                                     downloading pornography contained               things, recommended that OIT make
                                     in the Commission’s “Rules of the               several revisions to the draft Rules of
                                     Road” governing employee and con-               the Road, including emphasizing that
                                     tractor computer use to make it                 (1) employees should not use SEC in-
                                     clearer, more inclusive and consistent          formation technology resources for
                                     with other policies; and (4) revise the         any illegal or prohibited activity (e.g.,
                                     warning messages that users receive             to view pornography), personal gain,
                                     when an attempt to access pornogra-             or private or personal businesses; (2)
                                     phy is blocked by the Internet ﬁlter.           violations of criminal law or other
                                                                                     misconduct by SEC employees or
                                •   On February 4, 2008, the OIG issued             contractors should immediately be
                                     another memorandum to Commis-                   reported to the OIG; (3) users of
                                     sion management addressing the re-              SEC computer resources have no ex-
                                     cent OIG investigations that uncov-             pectation of privacy and expressly
                                     ered evidence that Commission em-               consent to monitoring of their net-
                                     ployees or contractors were using gov-          work activities; and (4) misuse of
                                     ernment computer resources and ofﬁ-             Commission computer resources, in-
                                     cial time to support private businesses.        cluding the accessing or downloading
                                     The OIG memorandum pointed out                  of pornography, may result in disci-
                                     that, in some instances, the amount of          plinary action, up to and including
                                     time and resources expended in sup-             dismissal and, in some circumstances,
                                     port of the private businesses was              criminal prosecution. OIT indicated
                                     quite substantial. The OIG memo-                that the OIG provided helpful com-
                                     randum further explained that while             ments, the majority of which were
                                     current Commission policies and                 incorporated into the recently issued
                                     rules prohibited employees from using           revised Rules of the Road.
                                     government ofﬁce equipment to
                                     maintain or support a private busi-        •   The OIG also provided comments to
                                     ness, the OIG investigations demon-             OIT on a revised draft implementing
                                     strated that several employees were             instruction establishing policies and
                                     not abiding by these rules. Therefore,          procedures for the use of digital fo-
                                     the OIG recommended that man-                   rensic tools. The OIG made several
                                     agement remind all Commission em-               suggestions to improve the clarity of
                                     ployees and contractors of the prohi-           the instruction. These included,
                                     bition on using Commission resources            among other things, specifying what
                                     and time to support private busi-               type of information must be provided
                                                                                     in a request for use of digital forensic

                                                                                                                                 11
SEMIANNUAL REPORT TO CONGRESS             tools, clarifying who must receive the   Security Enhancements in
                                          request, adding procedures for how       Parking Garage
                                          the tools will be employed, and clari-
                                          fying what types of records should be        During an investigation conducted during
                                          maintained regarding use of the tools.   the period, an OIG investigator personally
                                                                                   toured the Commission’s headquarters
                                     •   On March 21, 2008, the OIG issued        parking garage and learned of certain
                                          a memorandum to OIT pointing out         inadequacies in the security of the
                                          that, in several matters investigated    Commission’s headquarters parking garage. 
                                          during the reporting period, Commis-     Thereafter, the OIG conducted a review of
                                          sion employees were able to access
                                                                                   the security in the parking garage to
                                          pornographic images from their Gov-
                                          ernment computers by searching for       determine if it met Federal standards.
                                          images using Internet search engines
                                          and turning off the SafeSearch Filter        In the course of its review, the OIG
                                          feature. The OIG recommended that        examined the Security Standards for Leased
                                          OIT expeditiously implement, on a        Space issued by the Interagency Security
                                          Commission-wide basis, newly-            Committee on September 29, 2004. The OIG
                                          available technology that would pre-     found that while the Commission has already
                                          vent employees from turning off the      implemented certain security measures (e.g.,
                                          SafeSearch Filter feature. The OIG       the garage has distress buttons to be pressed
                                          also recommended that OIT continue
                                                                                   when assistance is needed to which
                                          to monitor new developments in
                                          technology in order to restrict em-      Commission security guards respond), the
                                          ployees’ ability to circumvent the       security of the Commission’s parking garage
                                          Commission’s Internet ﬁlter to access    did not meet a signiﬁcant requirement of the
                                          pornographic websites.                   standards.  On October 22, 2007, the OIG
                                                                                   issued a memorandum to management
                                                                                   recommending that action be taken
                                                                                   expeditiously to enhance security in the
                                                                                   parking garage.  Management concurred with
                                                                                   the recommendation and agreed to take
                                                                                   appropriate remedial measures.




                                12
U.S. Securities and Exchange Commission

                                                                     SEMIANNUAL
                                               Ofﬁce of
                                                                     REPORT TO
                                              Inspector
                                               General
                                                                     CONGRESS
                                          AUDITS AND
                                          INSPECTIONS
                                          OVERVIEW                                         regulated entities, protection of investor assets,
                                                                                           and evaluation of internal administrative
                                              The OIG’s Ofﬁce of Audits and                activities. All of the Ofﬁce’s audits are
                                          Inspections focuses its efforts on conducting    conducted in accordance with generally
                                          and supervising independent audits and           accepted government auditing standards
                                          inspections of the Commission’s programs and     issued by the Comptroller General of the
                                          operations. The Ofﬁce evaluates the              United States (the Yellow Book).
                                          Commission’s programs and operations to
                                          determine compliance with governing laws,            Inspections, on the other hand, are
                                          regulations, and policies, as well as whether    performed when the project involves highly
                                          resources are safeguarded and appropriately      technical areas, non-audit services, or
                                          managed, funds are expended properly,            consulting services. All inspections are
                                          desired program results are achieved,            conducted in accordance with the Quality
                                          information is reliable, etc. The Ofﬁce also     Standards for Inspections, issued in January
                                          uses contractors to conduct audits and           2005, by the President’s Council on Integrity
                                          inspections in specialty or highly technical     and Efﬁciency and the Executive Council on
                                          areas.                                           Integrity and Efﬁciency.

                                              The Ofﬁce of Audits and Inspections
                                          decides to conduct an audit or inspection by     SUMMARY OF AUDITS AND
                                          determining how the Ofﬁce’s objectives can       INSPECTIONS
                                          best be met. In general, the Ofﬁce conducts
                                          an audit when ﬁrm criteria or data exist,        Background Investigations (Inspection
                                                                                           Report No. 434)
                                          sample data is measurable, or testing internal
                                          controls is an integral component of the            The OIG initiated an inspection of the
                                          Ofﬁce’s objectives. Audits typically focus on    Commission’s Personnel Security/Suitability
                                          areas such as the oversight and examination of   Program (the Program) based on complaints


                                                                                                                                          13
SEMIANNUAL REPORT TO CONGRESS        we received from Commission ofﬁcials               Program. We also found that the Commission
                                     regarding signiﬁcant delays with processing        did not comply with key requirements of
                                     background investigations, as well as              Homeland Security Presidential Directive 12
                                     deﬁciencies observed during the OIG’s              (HSPD-12), Policy for a Common
                                     pervious audit of the Electronic Documents         Identiﬁcation Standard for Federal Employees
                                     Program (Audit Report No. 428), issued on          and Contractors, Federal Information
                                     July 25, 2007. We thereafter modiﬁed our           Processing Standard (FIPS) Publication 201-1,
                                     initial inspection objectives to focus our work    and Ofﬁce of Management and Budget
                                     on signiﬁcant organizational issues that           (OMB) guidance related to:
                                     affected the overall efﬁciency and effectiveness
                                     of the Program and, in our view, warranted         (1)	 reviewing initial results of OPM in-
                                     quick management action. Fieldwork was                  vestigations prior to granting interim
                                     performed from October 2007 to February                 clearances permitting individuals to
                                     2008 in accordance with Quality Standards               have unescorted access to Commis-
                                                                                             sion facilities;
                                     for Inspections, issued in January 2005, by the
                                                                                        (2)	 conducting background investigations
                                     President’s Council on Integrity and
                                                                                             on existing employee and contractors;
                                     Efﬁciency and the Executive Council on                  and
                                     Integrity and Efﬁciency.                           (3) reporting reliable data to OMB re-
                                                                                             garding the Commission’s progress in
                                         The Commission initiates background                 implementing HSPD-12.
                                     investigations of employees, contractors and
                                     other individuals who require long-term                 Lastly, we identiﬁed a matter related to the
                                     access to Commission controlled facilities         Commission’s issuance of HSPD-12
                                     and/or information systems. Once the               compliant identity cards that we believe
                                     background investigation is completed, the         warrants quick resolution by management.
                                     results are evaluated and, if appropriate,         We found that OHR had not provided the
                                     identity credentials are issued. The Ofﬁce of      resources necessary to fulﬁll its required roles
                                     Human Resources (OHR) Personnel                    under the new HSPD-12 credential system.
                                     Security/Suitability Branch (PSB) administers      As a result, the Commission could not begin
                                     the background investigation process and           to issue new credentials, which greatly
                                     makes decisions regarding an individual’s          increases the likelihood that the Commission
                                     suitability for employment. PSB is responsible     will not meet the required October 2008
                                     for determining the type of background             deadline to have new credentials in place.
                                     investigation that should be conducted,
                                     arranging the Ofﬁce of Personnel                       The OIG’s report made a total of nine
                                     Management’s (OPM’s) completion of                 recommendations for improvements. We
                                     investigations, maintaining personnel security     recommended the Commission develop
                                     ﬁles, and issuing guidance regarding the           comprehensive operating procedures, create
                                     Program.                                           an information system to track work
                                                                                        processes, evaluate and restructure staff
                                         The OIG issued a detailed inspection           resources, and acquire appropriate work and
                                     report on March 28, 2008. We found that            storage space for the Program. We also
                                     signiﬁcant organizational issues are preventing    recommended that the Commission take
                                     the Commission from having an effective            immediate action to correct the


                                14
SEMIANNUAL REPORT TO CONGRESS   noncompliance issues with respect to                  In FY 2007, according to the Ofﬁce of
                                HSPD-12 and FIPS 201-1. OHR                       Human Resources, the Commission paid
                                management concurred with all nine of our         approximately $3.4 million in SLP awards to
                                recommendations and, in some instances,           369 employees. According to OPM, in FY
                                took immediate action to address identiﬁed        2006, the Commission awarded more funds in
                                deﬁciencies.                                      total than any other agency in the Federal
                                                                                  government, except for the Department of
                                Student Loan Program                              Justice, Department of Defense, and
                                (Audit Report No. 439)                            Department of State. In addition, the
                                                                                  Commission paid more money per recipient
                                    The OIG conducted an audit of the
                                                                                  than any other Federal agency that had a
                                Commission’s student loan repayment               signiﬁcant number of recipients.
                                program (SLP) from October 2007 to
                                February 2008 in accordance with generally
                                                                                       The OIG issued a comprehensive audit
                                accepted government auditing standards.
                                                                                  report on March 27, 2008. The audit found
                                The SLP was established government-wide in
                                                                                  that several aspects of the SLP needed
                                accordance with 5 U.S.C. § 5379, as an            signiﬁcant improvement. We identiﬁed
                                incentive to recruit and retain highly qualiﬁed
                                                                                  weaknesses in the SLP’s internal controls
                                employees by paying their outstanding loan
                                                                                  relating to approvals, and the lack of
                                balances for Federally insured or guaranteed
                                                                                  documentation for certain parts of the process
                                student loans. Federal student loan
                                                                                  (e.g., repayments by employees who do not
                                repayment programs must be developed in           complete the required employment service
                                accordance with this statute and Ofﬁce of
                                                                                  agreement). We also observed deﬁciencies in
                                Personnel Management (OPM) regulations.
                                                                                  the areas of independent veriﬁcation,
                                After negotiations with the National Treasury
                                                                                  management records, safeguarding personal
                                Employees Union (NTEU) in FY 2003, the
                                                                                  information, and separation of duties. In
                                Commission established its SLP.                   addition, we found serious concerns with the
                                                                                  Commission's process to identify and collect
                                    Under statutory requirements, agencies
                                                                                  debts from employees who leave the
                                can make SLP awards to employees up to
                                                                                  Commission without completing their
                                $10,000 annually and a maximum of
                                                                                  employment service agreement. We identiﬁed
                                $60,000. Employees who receive an SLP             12 employees who left the Commission and
                                award must sign a three-year service
                                                                                  were required to repay $129,336 in total to
                                agreement. The Commission requires
                                                                                  the SLP, because the terms of the service
                                employees to commit to another year of
                                                                                  agreement had not been met. As a result of
                                service for each award approved thereafter.
                                                                                  our audit, the Commission has instituted
                                Pursuant to statute, an employee must repay       efforts to collect these funds.
                                the entire award if, before completing the
                                service agreement, he or she voluntarily leaves
                                                                                      We further found that the SLP justiﬁcation
                                the Federal government for the private sector,
                                                                                  memorandum process needs improvement to
                                or is dismissed for poor performance, unless
                                                                                  ensure that criteria established by OPM and
                                repayment is deemed to be “against equity         the agency’s Collective Bargaining Agreement
                                and good conscience or against the public
                                                                                  with NTEU are meaningful. Finally, we
                                interest.”
                                                                                  identiﬁed a compliance issue that the


                                                                                                                             15
SEMIANNUAL REPORT TO CONGRESS        Commission needs to address to ensure that          A court or the Commission may appoint a
                                     SLP funds are used in an appropriate manner.    receiver or distribution agent to safeguard
                                                                                     assets, create a proposed distribution plan,
                                         The audit report contained 19               and distribute assets in accordance with a
                                     recommendations, including that SLP ofﬁcials    distribution plan approved by the court or the
                                     strengthen internal controls, identify and      Commission. In some administrative
                                     collect debts from former employees, improve    proceeding cases, Commission staff may
                                     the justiﬁcation memorandum process, plan       distribute assets.
                                     for compliance issues, and include applicable
                                     information in vacancy announcements. The           For assets within the jurisdiction of the
                                     implementation of these recommendations         court presiding over an Enforcement civil
                                     should strengthen the SLP’s internal controls   case, the Commission typically recommends
                                     and correct the deﬁciencies outlined in the     possible receivers to the court, which then
                                     report.                                         appoints a receiver to preserve the property of
                                                                                     the defendant(s). A receiver may be
                                          Commission management concurred with       appointed when there is danger that, in the
                                     all 19 of our recommendations and stated        absence of such an appointment, the property
                                     that they have already begun revising           could be lost, removed or dissipated. In
                                     program operating procedures. They also         Commission civil cases, a receiver is
                                     expressed their intention to establish more     authorized to garner assets and take over a
                                     stringent loan veriﬁcation procedures with      business or public company. For the purposes
                                     lenders. Commission management                  of our audit, we used the term, “distribution
                                     committed to work collaboratively with the      agent” to include all third party agents (except
                                     Ofﬁce of Financial Management to establish      receivers) in both civil and administrative
                                     procedures to collect funds from employees      proceedings who oversee or disburse funds
                                     who leave the Commission prior to               through an appointment outlined in a court
                                     completing their SLP service agreements.        or Commission order.

                                     Oversight of Receivers and                           The OIG issued an inspection report on
                                     Distribution Agents (Inspection Report          December 12, 2007. We found that
                                     No. 432)                                        Enforcement’s oversight of receivers and
                                                                                     distribution agents should be enhanced.
                                         From March 2007 to September 2007, the
                                     OIG conducted an inspection of the Division     Court and Commission orders appointing
                                     of Enforcement’s (Enforcement’s)                receivers and distribution agents do not
                                     coordination with receivers and other third     typically require them to report their efforts to
                                     party agents, such as distribution agents, to   garner assets, administrative costs incurred,
                                                                                     the ﬁnancial condition of the assets collected
                                     determine whether improvements in
                                     Enforcement’s oversight of receivers and        and their planned future activities. As a
                                     distribution agents were needed. This           result, receivers and distribution agents report
                                     inspection was performed in accordance with     this information to varying degrees and with
                                     the Quality Standards for Inspections, issued   little consistency. Additionally, Enforcement
                                                                                     does not consistently review or track the
                                     in January 2005, by the President’s Council
                                     on Integrity and Efﬁciency and the Executive    ﬁnancial information it receives from receivers
                                     Council on Integrity and Efﬁciency.             and distribution agents.


                                16
SEMIANNUAL REPORT TO CONGRESS       We identiﬁed three recommendations that        administrative costs and fund recipients to
                                Enforcement should take to improve its             identify inﬂated costs or improper
                                oversight of receivers and distribution agents.    disbursements. Enforcement management
                                First, we recommended that Enforcement             concurred with the report’s recommendations
                                ensure that receiver and distribution agents       and indicated that they found the report
                                provide periodic, formal reports describing        particularly useful and planned to implement
                                their efforts to garner assets, administrative     its recommendations as soon as possible.
                                costs incurred, the ﬁnancial condition of the
                                assets collected, and planned future activities.   SRO Rule Filing Process
                                Second, we recommended that Enforcement            (Audit Report No. 438)
                                request that receivers and distribution agents         The OIG conducted an audit of the
                                provide, in a speciﬁed format, a ﬁnal              Commission’s process for reviewing Self-
                                accounting of all assets collected and             Regulatory Organization (SRO) proposed rule
                                disbursed. Enforcement should specify the          changes. The scope of the audit covered
                                reporting provisions in a written document,        1,014 and 1,143 proposed rule changes the
                                such as the proposed court or Commission           Commission processed in 2006 and 2007,
                                appointment order.                                 respectively, as well as all proposed rule
                                                                                   changes open as of November 7, 2007.
                                    Lastly, we recommended that                    Fieldwork was performed from September
                                Enforcement provide guidance or training to        2007 to February 2008, in accordance with
                                staff who have oversight of receivers and          generally accepted government auditing
                                distribution agents. The guidance should           standards.
                                explain how to:
                                                                                       An SRO is a non-government
                                •   review the receiver’s/distribution            organization that has the power to create and
                                     agent’s fees;                                 enforce industry regulations and standards.
                                •   identify, question, and object to exces-
                                                                                   SROs include national securities exchanges
                                     sive fees;
                                •   specify a receiver’s/distribution             and securities associations registered with the
                                     agent’s reporting responsibilities in an      Commission, such as the New York Stock
                                     appointment order;                            Exchange and the American Stock Exchange.
                                •   stay informed of a receiver’s/                SROs protect investors through the
                                     distribution agent’s current and              establishment of rules that promote ethics and
                                     planned activities;                           equality. They are required to ﬁle proposed
                                •   evaluate the cost effectiveness of a          rule changes with the Commission in order
                                     receiver’s/distribution agent’s activi-       for the new rules to become effective. The
                                     ties; and                                     Commission approves certain rules before
                                •   draft a distribution plan.
                                                                                   they can take effect, while other rules are
                                                                                   effective upon ﬁling, without Commission
                                    The report also discussed whether              approval.
                                Enforcement or an outside party should audit
                                                                                       The audit objectives were to: (1) verify
                                the receiver’s or distribution agent’s records.
                                                                                   Commission compliance with the
                                This audit could include reviewing a sample
                                                                                   requirements of the Securities Exchange Act
                                of a receiver’s or distribution agent’s
                                                                                   of 1934 (the Exchange Act) and the Division

                                                                                                                               17
SEMIANNUAL REPORT TO CONGRESS        of Trading and Market’s (TM’s) policies and        website within two days of ﬁling them with
                                     procedures; (2) evaluate TM’s Self-Regulatory      the Commission, as required by Rule 19b-4 of
                                     Organization Rule Tracking System (SRTS);          the Exchange Act. We believe that TM
                                     (3) follow up on recommendations made in a         should remind the SROs of this requirement.
                                     prior OIG audit of TM’s SRO Rule Filing
                                     process (Commission Review of SRO Rules,                We further found that public comment
                                     No. 272, issued July 14, 1998); and (4) identify   letters were not always available on the
                                     improvements to the Commission’s SRO rule          Commission’s website, in TM’s ofﬁcial rule
                                     ﬁling process.                                     ﬁles or in the SRTS System. Additionally, we
                                                                                        identiﬁed several TM ofﬁcial SRO rule ﬁles
                                         The OIG issued a detailed audit report on      that were incomplete and found that TM did
                                     March 31, 2008. The audit found that the           not have a written policy identifying all of the
                                     Commission’s SRO rule ﬁling process was            documents to be included in these ﬁles.
                                     effective and well-organized. In addition,
                                     while some timeliness issues are outside the           According to the OIG’s sample data,
                                     Commission’s control (e.g., when the               information recorded in SRTS was accurate
                                     Commission is waiting for an SRO to ﬁle an         and timely entered overall. Additionally,
                                     amendment), overall we found that the              SRTS was effective in receiving and tracking
                                     Commission’s timeliness in processing              proposed rule changes and in developing
                                     proposed rule changes needs improvement.           management reports. However, staff did not
                                     The Commission did not consistently approve        consistently record whether the electronic
                                     proposed rule changes within the prescribed        information received included a valid digital
                                     statutory timeframe in eight of 15 instances       signature. The digital signature is important
                                     we reviewed.                                       because it provides assurance that the
                                                                                        information has not been altered. We also
                                         Further, TM does not have policies             identiﬁed certain enhancements that should
                                     outlining the criteria for following up with       be made to SRTS.
                                     SROs on open proposed rule changes,
                                     requesting SROs to withdraw proposed rule               The audit report included 19
                                     changes, or disapproving or rejecting              recommendations to improve TM’s timeliness
                                     proposed rule changes. We believe that             in processing proposed rule changes, follow up
                                     establishing and adhering to such policies         on open proposed rule changes, ensure that
                                     would improve TM’s timeliness. Timely              TM’s ofﬁcial rule ﬁles are complete and public
                                     processing is essential because it assists the     comment letters are available, improve TM’s
                                     SROs in remaining competitive with foreign         policies and procedures and enhance SRTS.
                                     exchanges and futures exchanges, electronic        Management concurred with all 19 of the
                                     communications networks and alternative            report’s recommendations and stated that it
                                     trading systems, which can change their            recognized the inherent value in taking a
                                     trading or trade new products with greater         critical look at the SRO rule ﬁling process to
                                     ease and without Commission review.                address any deﬁciencies in a timely and
                                                                                        efﬁcient manner.
                                         The audit also found that one SRO did
                                     not post two proposed rule changes to its



                                18
SEMIANNUAL REPORT TO CONGRESS   Controls Over Laptops                             property. Second, a Commission-wide
                                (Inspection Report No. 441)                       inventory of laptop computers had not been
                                                                                  performed since 2003. Third, due to the
                                    The OIG conducted an inspection of the
                                                                                  absence of a baseline inventory, we were
                                Ofﬁce of Information Technology’s (OIT)
                                                                                  unable to trace ownership of laptops to
                                controls over laptops from October 2007 to
                                                                                  speciﬁc individuals. As a result of these
                                February 2008, in accordance with the             weaknesses, we found that Commission
                                Quality Standards for Inspections, issued in
                                                                                  laptops were susceptible to theft without
                                January 2005, by the President’s Council on
                                                                                  detection.
                                Integrity and Efﬁciency and the Executive
                                Council on Integrity and Efﬁciency. Our
                                                                                      The inspection report made ﬁve
                                objective was to assess the adequacy of           recommendations, including that laptops be
                                controls over laptops and compliance with
                                                                                  classiﬁed as sensitive Commission property
                                relevant guidelines.
                                                                                  and properly inventoried. Commission
                                                                                  management concurred with all of our
                                    The OIG issued an inspection report on
                                                                                  recommendations and pledged to implement
                                March 31, 2008. The report focused on data        them expeditiously.
                                obtained from the Ofﬁce of Administrative
                                Services (OAS) and OIT’s Asset Management
                                                                                  Usefulness of IM’s Website
                                Branch and found deﬁciencies that warranted       (Inspection Report No. 436)
                                swift remedial action.
                                                                                      The OIG conducted an inspection of the
                                    Our inspection concluded that OIT does        Division of Investment Management’s (IM’s)
                                not have proper accountability over laptops,      Intranet site, IMweb, to determine whether it
                                which we determined are sensitive items that      was useful for staff and to identify areas in
                                contain proprietary information and, if lost or   which it could be improved. We conducted
                                stolen, could negatively affect the               this inspection between August 2007 and
                                Commission’s image. We became aware of            January 2008 in accordance with the Quality
                                OIT’s ongoing encryption initiative and           Standards for Inspections, issued in January
                                commended them for this needed security           2005, by the President’s Council on Integrity
                                measure. Our report noted, however, that          and Efﬁciency and the Executive Council on
                                although encryption can mitigate the risk of      Integrity and Efﬁciency.
                                data being accessed from a laptop, it does not
                                eliminate the need to have proper                      Our inspection found that IMweb offered
                                accountability over the equipment. We also        limited utility to IM staff as a whole.
                                determined that controls over laptops were        Although IM’s Ofﬁce of Financial Analysis
                                weak due to the failure to take inventory, or     (OFA) sent links of the IMweb reports to all
                                use another method, to ensure the                 IM staff, of the 19 personnel in IM we
                                Commission has an accurate account of its         contacted, nine indicated they did not even
                                laptops.                                          know about IMweb. Of these, only four
                                                                                  indicated they had ever used the site. We
                                    We further concluded that effective           further found that the screen reader software
                                accountability of laptop computers simply did     utilized by visually impaired staff is difﬁcult to
                                not exist. First, OAS’s property management       use with IMweb.
                                policy did not identify laptops as sensitive

                                                                                                                                 19
SEMIANNUAL REPORT TO CONGRESS            We did ﬁnd that staff in OFA and IM’s               ECS conducted the EA inspection
                                     Ofﬁce of Disclosure and Review (ODR) used           between August 2007 and March 2008 on
                                     IMweb. OFA staff found the website useful           behalf of OIG. The inspection was
                                     for posting ﬁnancial and statistical reports,       conducted in accordance with the Quality
                                     such as fund watch reports, “dashboard” data,       Standards for Inspections, issued in January
                                     and fund industry statistics, in electronic form.   2005, by the President’s Council on Integrity
                                     OFA posted electronic links to its reports in       and Efﬁciency and the Executive Council on
                                     IMweb instead of distributing paper copies.         Integrity and Efﬁciency. In responding to the
                                     ODR staff used the analyses of fund returns         task order, the ECS team developed a six-step
                                     in the stock, bond, and money market                methodology designed to evaluate the
                                     “watch” reports. In addition, staff we              Commission’s architecture, and its migration
                                     interviewed in the Commission’s Ofﬁce of            strategy, for compliance with statutory and
                                     Compliance, Inspections, and Examinations           OMB requirements and to make appropriate
                                     found the fund watch reports to be useful.          recommendations for improvements.

                                         The OIG issued an inspection report on              The OIG issued a report on March 31,
                                     March 28, 2008, that made three                     2008, providing the results of ECS’s
                                     recommendations discussing how IM could             inspection. With respect to the Commission’s
                                     improve the usefulness of its Intranet. We          overall status and progress in meeting EA
                                     recommended that IM identify clear                  mandates and objectives, ECS found the
                                     objectives for its Intranet before implementing     Commission had made progress in developing
                                     any improvements, incorporate website and           and documenting a comprehensive EA
                                     systems development best practices in its           program. Using the OMB Federal Enterprise
                                     Intranet improvement efforts, and ensure that       Assessment Framework 1 as a guide, ECS
                                     the Intranet site complies with accessibility       found the Commission generally performed
                                     requirements of Section 508 of the                  well in the Completion Capabilities areas,
                                     Rehabilitation Act of 1973. Commission              very well in the Use Capabilities areas, but
                                     management concurred with all of our                poorly in the Results Capabilities areas.
                                     recommendations.
                                                                                             With respect to recommendations made
                                     Enterprise Architecture Assessment                  during an OIG EA audit conducted in 2004
                                     (Inspection Report No. 442)                         (Audit Report No. 381), ECS found the
                                                                                         Commission has made some progress toward
                                         In September 2007, we awarded task
                                                                                         obtaining business owner validation and
                                     order #0010 to contract SECHQ1-03-D-0176
                                                                                         support of the current “as-is” enterprise
                                     to ECS Federal, Inc. (ECS) for an inspection
                                                                                         architecture. The inspection also found the
                                     of the progress of the Commission’s efforts to      Commission’s Ofﬁce of Information
                                     develop information technology enterprise
                                                                                         Technology (OIT) had developed and
                                     architecture (EA), as required by the Clinger-
                                                                                         documented a coherent EA program.
                                     Cohen Act of 1996 and Ofﬁce of
                                     Management and Budget (OMB) guidance.




                                20
SEMIANNUAL REPORT TO CONGRESS       Further, ECS found the OIT EA group           organization. The “as-is” and “to-be”
                                had made signiﬁcant progress in establishing a    architectures were clearly deﬁned, the
                                communications strategy to introduce EA           transition strategies were documented, and the
                                successfully throughout the Commission.           program was being effectively managed. ECS
                                ECS determined that OIT EA personnel had          determined, however, that senior level
                                established an Intranet site to assist with the   management have not fully embraced the EA
                                promulgation and distribution of information      program and that, until this is done, the
                                related to EA. However, while                     Commission will not reap the full beneﬁts of
                                communications were improved on the               the program.
                                Intranet, a great deal of the information was
                                outdated. In addition to the Intranet site, the       The inspection report contained seven
                                OIT EA group had undertaken several               recommendations to improve the agency’s EA
                                outreach initiatives, including periodic          program. Management concurred with all of
                                brieﬁngs, newsletters and brown bag lunches,      the recommendations and indicated they
                                designed to demonstrate the value of EA to        would integrate the EA program with the
                                the business line constituency.                   agency’s capital planning and investment
                                                                                  control process and other core management
                                   ECS also found the Commission had              processes, and more actively involve the
                                developed and documented an excellent EA          business leaders in the EA strategy.
                                program for the type and size of its




                                                                                                                             21
22
U.S. Securities and Exchange Commission

                                                                      SEMIANNUAL
                                                Ofﬁce of
                                                                      REPORT TO
                                               Inspector
                                                General
                                                                      CONGRESS
                                          INVESTIGATIONS
                                          OVERVIEW                                           Quality Standards for Investigations, issued in
                                                                                             December 2003, by the President’s Council on
                                              The OIG investigative unit responds to         Integrity and Efﬁciency and the Executive
                                          allegations of violations of statutes, rules and   Council on Integrity and Efﬁciency. In
                                          regulations, and other misconduct, by              instances where it is determined that
                                          Commission staff and contractors. The              something less than a full investigation is
                                          misconduct investigated ranges from criminal       appropriate, the OIG investigative unit
                                          wrongdoing and fraud to violations of              conducts a preliminary inquiry into the
                                          Commission rules and policies and the              allegation. If the information obtained during
                                          Government-wide ethical standards of               the inquiry indicates that a full investigation is
                                          conduct. The OIG currently receives                warranted, the OIG will commence an
                                          complaints through an ofﬁce electronic             investigation of the allegation.
                                          mailbox or by mail, facsimile and telephone.
                                          During the reporting period, we undertook              Upon the opening of an investigation, the
                                          efforts to enhance our receipt of complaints by    primary OIG investigator assigned to the case
                                          entering into a contract with an outside           prepares a comprehensive plan of
                                          vendor to provide both telephone and web-          investigation that describes the focus and
                                          based Hotline reporting services. We are also      scope of the investigation, as well as the
                                          beginning a redesign of the OIG website to         speciﬁc investigative steps to be performed
                                          make it more complete, informative and useful      during the investigation. Pursuant to newly
                                          to the public. We anticipate the redesign to be    enacted procedures, in all investigations, the
                                          completed over the next few months. Both of        OIG investigator interviews the complainant
                                          these efforts are expected to encourage and        ﬁrst whenever feasible and conducts all
                                          facilitate the reporting of complaints to the      signiﬁcant interviews under oath and on the
                                          OIG.                                               record. Where there is any reason to believe a
                                                                                             witness will not provide truthful testimony, the
                                              The OIG investigative unit conducts            OIG investigator provides an appropriate
                                          thorough and independent investigations into       perjury warning. In addition, the OIG
                                          allegations received in accordance with the

                                                                                                                                            23
SEMIANNUAL REPORT TO CONGRESS        investigator gives assurances of conﬁdentiality     INVESTIGATIONS AND
                                     to potential witnesses who have expressed           INQUIRIES CONDUCTED
                                     reluctance to come forward.                         Investigations of Perjury by
                                                                                         Supervisory Attorneys
                                         Where allegations of criminal conduct are
                                     involved, the OIG investigative unit notiﬁes            During the reporting period, the OIG
                                     and works with the Department of Justice and        investigated two matters involving allegations
                                     the Federal Bureau of Investigation as              of perjury by supervisory Commission
                                     appropriate. The OIG recently entered into a        attorneys. Both matters resulted in referrals to
                                     memorandum of understanding with the                the Public Integrity Section of the Criminal
                                     Commission’s Ofﬁce of Information                   Division of the Department of Justice.
                                     Technology to provide necessary assistance for
                                     OIG investigations, including the prompt            •   In one matter, the OIG received an
                                     retrieval of employee e-mail accounts as                 anonymous complaint that a Com-
                                     requested by the OIG investigators. The OIG              mission supervisory attorney was not a
                                                                                              bar member and had falsely repre-
                                     investigative staff meets with the Inspector
                                                                                              sented that fact in a declaration ﬁled
                                     General frequently (at least monthly) to review
                                                                                              in Federal court. The OIG’s initial
                                     the progress of ongoing investigations. The              investigation into the allegation con-
                                     OIG investigative unit also meets periodically           ﬁrmed that the supervisor was not a
                                     with the Commission’s Ethics Counsel to                  bar member, but had claimed to be a
                                     coordinate activities.                                   member of a particular state bar and
                                                                                              the bar of a Federal court in a decla-
                                         Upon completion of an investigation, the             ration ﬁled in an SEC litigation mat-
                                     OIG investigator prepares a comprehensive                ter.
                                     report of investigation that sets forth in detail
                                     the evidence obtained during the                    	    OIG investigators interviewed the
                                     investigation. Investigative matters are                 subject of the investigation, who ini-
                                                                                              tially dishonestly claimed he was a bar
                                     referred to the Department of Justice and
                                                                                              member. However, shortly after ex-
                                     Commission management as appropriate. In                 amination by the OIG investigators,
                                     the investigative reports provided to                    he recanted that claim and acknowl-
                                     Commission management, the OIG makes                     edged he had never been admitted to
                                     speciﬁc ﬁndings and recommendations,                     any bar, repeatedly lied about that
                                     including whether the OIG believes                       fact, and made false statements about
                                     disciplinary or other action should be taken.            his bar and court membership in the
                                     The OIG requests that management report                  Federal court declaration. The evi-
                                     back on the disciplinary action taken in                 dence showed that the supervisor had
                                     response to an OIG investigative report within           passed the bar examination and ﬁled
                                                                                              an initial application for bar member-
                                     45 days of the issuance of the report. The
                                                                                              ship but had never completed the
                                     OIG follows up with management prior to                  process. Shortly after the OIG inter-
                                     and at the 45-day mark to determine the                  view, the supervisor resigned from the
                                     status of disciplinary action taken in the               Commission.
                                     matter.




                                24
SEMIANNUAL REPORT TO CONGRESS       We referred the evidence to the Public         supervisor, the EEO complainant and
                                     Integrity Section of the Criminal Di-          several other witnesses. The supervi-
                                     vision of the Department of Justice,           sor resigned from the Commission
                                     which immediately opened a case in             immediately following his OIG testi-
                                     the matter. An OIG investigator                mony.
                                     worked closely with the Public Integ-
                                     rity Section in its criminal investiga-       On March 31, 2008, the OIG issued
                                     tion of the matter. The OIG investi-           an extensive report of investigation to
                                     gator conducted or participated in             the Public Integrity Section of the
                                     interviews of several Commission               Criminal Division of the Department
                                     managers and staff, a partner at the           of Justice, Commission senior man-
                                     law ﬁrm where the subject of the in-           agement, and the agency’s Ethics
                                     vestigation previously worked, and the         Counsel. In that report, the OIG
                                     judge in the Federal court matter in           concluded that the supervisor made
                                     which the false declaration was ﬁled.          materially false and misleading state-
                                     The OIG also obtained and reviewed             ments under oath during the investi-
                                     numerous relevant documents from               gation of the subordinate’s EEO
                                     Commission ﬁles, the clerk of the              complaint, in violation of both
                                     court in which the supervisor’s bar            criminal statutes and the rules of the
                                     application had been ﬁled, and other           state bars of which the supervisor was
                                     sources.                                       a member.

                                	    After a thorough investigation and            Speciﬁcally, the OIG found three
                                     consideration of all the evidence and          separate instances in which the supe-
                                     mitigating factors, the government             rior’s sworn EEO testimony was un-
                                     entered into a non-prosecution                 truthful. The OIG determined that
                                     agreement with the former Commis-              the supervisor had been untruthful
                                     sion supervisor. In return for an              based on the sworn testimony of the
                                     agreement not to prosecute him for             EEO complainant and other wit-
                                     the conduct that was the subject of            nesses, as well as direct contradictions
                                     the criminal investigation, the former         between the supervisor’s EEO testi-
                                     supervisor agreed that he would not            mony and his subsequent sworn tes-
                                     solicit or accept Federal government           timony before the OIG. The OIG
                                     employment for a period of ten years           report also pointed out that the perju-
                                     from the date of his separation from           rious statements were material in na-
                                     the Commission.                                ture as they attempted to refute claims
                                                                                    made in the subordinate’s EEO com-
                                •   In the second matter, the OIG inves-           plaint.
                                     tigated an allegation that a supervisor,
                                     who was an attorney, had committed            In addition to referring the matter to
                                     perjury on several occasions during            the Public Integrity Section for con-
                                     testimony given in an investigation of         sideration of criminal prosecution,
                                     an Equal Employment Opportunity                the OIG recommended that the
                                     (EEO) complaint ﬁled by a subordi-             Commission’s Ethics Counsel refer
                                     nate. The OIG investigator thor-               the matter to the state bars of which
                                     oughly reviewed and analyzed the               the attorney was an active member.
                                     relevant record in the underlying              The OIG also informed Commission
                                     EEO matter. The OIG investigator               senior management that the OIG
                                     also took sworn testimony from the             would have recommended serious

                                                                                                                               25
SEMIANNUAL REPORT TO CONGRESS            disciplinary action against the em-                The OIG referred the matter to
                                         ployee had he not resigned before the         management and recommended that serious
                                         investigation was completed.                  disciplinary action be taken against the Senior
                                                                                       Ofﬁcer. The OIG further recommended that
                                     Investigation of Disruptive                       both individuals found to have lacked candor
                                     Behavior by a Senior Manager
                                                                                       in their testimony be speciﬁcally and strongly
                                          The OIG conducted an investigation of        reminded about their obligations to provide
                                     allegations that a Senior Ofﬁcer (the SEC         full and truthful testimony to the OIG in
                                     equivalent of Senior Executive Service)           ofﬁcial investigations. Management’s decision
                                     verbally and physically assaulted a colleague     on disciplinary action is pending.
                                     in the ofﬁce. The OIG investigator obtained
                                     and reviewed e-mails of the employees             Investigation of Misrepresentation of
                                     involved in the altercation for the relevant      Professional Credentials and Misuse of
                                                                                       Computer Resources
                                     time period and obtained additional e-mails
                                     printed from one of the employee’s home               The OIG investigated an allegation that a
                                     computer. OIG investigators also took             Commission staff member had
                                     testimony from or interviewed 17 different        misrepresented to colleagues and others that
                                     SEC employees and obtained relevant notes         she was a Certiﬁed Public Accountant (CPA).
                                     and documents.                                    OIG investigators obtained and reviewed
                                                                                       seven months of the employee’s e-mails. The
                                         On December 31, 2007, the OIG issued a        OIG contacted the applicable state
                                     comprehensive report to senior management         accountancy board and obtained conﬁrmation
                                     describing the ﬁndings of its investigation.      that the employee was not licensed. An OIG
                                     The evidence showed that the Senior Ofﬁcer        investigator took the employee’s testimony
                                     had engaged in a verbal and physical tirade       under oath and reviewed a notarized written
                                     toward a colleague, which constituted a           statement provided by the employee. In
                                     disruptive act in the workplace. The evidence     addition, the OIG investigator interviewed the
                                     concerning a possible assault was referred to     employee’s current and prior supervisors.
                                     the appropriate United States Attorney’s
                                     Ofﬁce, which declined prosecution.                    The OIG provided a report of
                                                                                       investigation to management on March 27,
                                          The OIG investigation also uncovered         2008. The evidence showed that the
                                     evidence that the Senior Ofﬁcer had a history     employee was not a CPA, but had nevertheless
                                     of intimidating and controlling behavior in       used a signature block indicating she was a
                                     the workplace. Several of the Senior Ofﬁcer’s     CPA on hundreds of emails sent to colleagues
                                     colleagues and subordinates (some of whom         and persons outside the Commission.
                                     requested and were granted conﬁdentiality)        Importantly, the evidence showed the
                                     informed the OIG that this individual was         employee continued to use the CPA signature
                                     also rude and belittling to staff, exhibited      block on some e-mails even after the state
                                     erratic behavior, and instilled fear in others.   accountancy board clearly informed her she
                                     We also found that the Senior Ofﬁcer and a        was not a CPA. The employee also admitted
                                     colleague lacked candor in their sworn            in testimony that she had told co-workers she
                                     testimony to the OIG investigator.                was a CPA. We found no evidence, however,
                                                                                       that the employee misrepresented herself as a


                                26
SEMIANNUAL REPORT TO CONGRESS   CPA to ﬁrms registering with the                  interviewed ofﬁcials from the company
                                Commission.                                       responsible for building security.

                                    The OIG investigation also found                  On March 13, 2008, the OIG issued a
                                evidence that the employee violated               detailed report to management describing the
                                Commission policies permitting limited            ﬁndings of its investigation. The OIG
                                personal use of government ofﬁce equipment        investigation revealed that during the nine-
                                by sending and receiving an excessive amount      month period examined, the employee had
                                of personal e-mails during duty hours. The        been absent from the ofﬁce without taking
                                OIG investigators found thousands of              leave for more than 400 hours. The
                                personal e-mails, including lengthy strings the   investigation found that the employee had
                                employee exchanged with friends and some e-       leave balances available but did not request
                                mails containing inappropriate sexual content.    leave for the time spent out of the ofﬁce.
                                                                                  When confronted with the building access
                                    The OIG referred both the                     records, the employee did not deny that he
                                misrepresentation of credentials and the          may have come in late or left early some days
                                excessive personal e-mail use to the              and was unable to explain his absences in the
                                appropriate United States Attorney’s Ofﬁce,       middle of the day. We also found that the
                                which declined prosecution. The OIG then          employee’s testimony about the circumstances
                                referred the matter to management for             under which he was given the leave restriction
                                consideration of disciplinary action, up to and   memorandum lacked credibility.
                                including dismissal. The OIG also suggested
                                that management give strong consideration to           Because of the large number of hours
                                revoking the employee’s recurring telework        involved, the OIG referred the theft of
                                schedule. Management’s decision on                government time to the appropriate United
                                disciplinary action is pending.                   States Attorney’s Ofﬁce, which declined
                                                                                  prosecution in the matter. We also referred
                                Investigation of Time and                         the matter to agency management. Given the
                                Attendance Abuse                                  large number of hours and other aggravating
                                    During the period, the OIG conducted an       factors, including the leave restriction
                                investigation into an allegation that an          warning, lack of credibility in certain
                                                                                  testimony and a prior disciplinary action, we
                                employee who had been placed on leave
                                restriction for time and attendance violations    recommended that management take
                                continued to abuse time and attendance by         disciplinary action, up to and including
                                numerous unaccounted-for absences from the        dismissal. The OIG also recommended that
                                ofﬁce. The OIG obtained and analyzed              management give strong consideration to
                                                                                  charging the employee for the unauthorized
                                building access history records for the
                                employee for a nine-month period. The OIG         absences. Management’s decision on
                                also reviewed numerous other relevant             disciplinary action is pending.
                                records, including the leave restriction
                                memorandum that had been given to the             Investigation of Misuse of
                                                                                  Government Parking Permit
                                employee and his leave request forms. The
                                OIG investigator took the sworn testimony of          The OIG investigated an allegation that
                                the employee and his current supervisor, and      an employee was misusing a government-

                                                                                                                                27
SEMIANNUAL REPORT TO CONGRESS        purchased parking permit to park in the            the type of permit purchased by the
                                     building garage, rather than paying for            government, rather than an individually-
                                     monthly or daily parking. The OIG obtained         purchased monthly parking permit.
                                     and reviewed the results of surveillance of the
                                     parking garage that was performed by the               When interviewed, the employee admitted
                                     Commission’s security guard service, including     taking a government parking permit without
                                     photographs of the employee’s vehicle with         authorization on one occasion and using it to
                                     the suspect permit. An OIG investigator            park in the garage. The employee claimed,
                                     personally observed the vehicle parking in the     however, that during the period her car was
                                     garage with the suspect permit displayed. The      observed in the garage, she had only parked in
                                     OIG issued a subpoena for records of               the garage a few times and she either paid the
                                     payments made by the employee to the               daily parking rate or the attendants let her
                                     company that operates the parking garage.          park for free. This testimony was not deemed
                                     The OIG also obtained building access              credible, in light of the overwhelming
                                     records for the employee, as well as state         evidence described above.
                                     registration records for the employee’s vehicle.
                                                                                             Because of the seriousness of the matter,
                                         In addition, OIG investigators interviewed     we referred it to the appropriate United States
                                     a total of ten witnesses, including several        Attorney’s Ofﬁce, which declined prosecution
                                     individuals who had observed the employee’s        in lieu of administrative action. We therefore
                                     vehicle parked in the garage with the suspect      referred the matter to management,
                                     permit and the three parking garage                recommending it take disciplinary action, up
                                     attendants. An OIG investigator conducted          to and including dismissal. Management’s
                                     an initial interview of the subject of the         decision on disciplinary action is pending.
                                     investigation, who subsequently declined to
                                     provide testimony under oath, invoking her         Investigations of Misuse of Computer
                                     Fifth Amendment privilege against self-            Resources to View Pornography
                                     incrimination.
                                                                                             During the reporting period, the OIG
                                                                                        arranged with the agency’s Ofﬁce of
                                         The OIG issued an extensive report of
                                                                                        Information Technology (OIT) to receive lists
                                     investigation on March 25, 2008. The OIG
                                                                                        of agency employees who had numerous
                                     investigation uncovered abundant evidence
                                                                                        attempts to access pornographic websites from
                                     that the employee had misused a government
                                                                                        their Commission computers that were
                                     parking permit for her personal parking on
                                                                                        blocked by the agency’s Internet ﬁlter, as well
                                     numerous occasions. Several individuals
                                                                                        as instances where they successfully accessed
                                     observed the employee’s vehicle parked in the
                                                                                        pornography or inappropriate material.
                                     garage with the suspect permit on at least
                                                                                        Depending on the frequency of the accesses
                                     seven separate occasions. On all but one
                                                                                        and attempted accesses and the nature of the
                                     occasion, the permit number was blocked
                                                                                        material accessed, the OIG either conducted a
                                     from view by a decal on the vehicle. Other
                                                                                        full investigation or a more limited inquiry, as
                                     evidence, including the building access records
                                                                                        follows.
                                     and the interviews of the garage attendants,
                                     revealed that the employee parked in the
                                     garage on a regular basis and generally used


                                28
SEMIANNUAL REPORT TO CONGRESS   •   In one investigated matter, the OIG’s         ofﬁcial referral of the matter to man-
                                     examination of logs of an employee’s          agement for disciplinary action.
                                     Internet activity and images recovered
                                     from his computer hard drive revealed    •   In another investigated matter, the
                                     evidence that the employee had at-            OIG uncovered evidence that an em-
                                     tempted to and successfully accessed          ployee had, in a one-month period,
                                     pornography from his Commission               over 16,000 attempts to access web-
                                     computer on multiple occasions. In            sites that the Internet ﬁlter blocked as
                                     sworn testimony before the OIG, the           pornography, many of which oc-
                                     employee admitted accessing Internet          curred during duty hours. The inves-
                                     pornography during and after work             tigation further found numerous in-
                                     hours, saving sexually-explicit images        stances when the employee success-
                                     and videos to his computer hard drive,        fully accessed sexually suggestive and
                                     and on one occasion uploading a               inappropriate websites. The OIG in-
                                     sexually-explicit video to a website.         vestigation also revealed that the em-
                                     The employee attributed his repeated          ployee had previously been suspended
                                     violations of Commission rules and            for three days for conduct unbecom-
                                     policy to a long-standing addiction to        ing a Federal employee and that an
                                     Internet pornography.                         arbitrator upheld this penalty. The
                                                                                   employee declined to testify in the
                                	    During his OIG testimony, the em-             OIG investigation, invoking his Fifth
                                     ployee initially denied accessing             Amendment privilege against self-
                                     Internet pornography subsequent to            incrimination.
                                     being made aware of the OIG inves-
                                     tigation into his computer misuse.           The OIG issued a report to manage-
                                     Upon further examination, the em-             ment on January 23, 2008, recom-
                                     ployee admitted, however, that he had         mending disciplinary action, up to
                                     in fact again accessed two of the por-        and including dismissal. Based on the
                                     nographic websites he had frequently          OIG’s report of investigation, man-
                                     visited after learning of the OIG in-         agement placed the employee on ad-
                                     vestigation. The employee admitted            ministrative leave and proposed his
                                     that he did so in order to erase,             removal for use of government com-
                                     among other things, pornographic              puter resources for other than author-
                                     bookmarks and the sexually-explicit           ized purposes and misuse of ofﬁcial
                                     video he had uploaded. The em-                time. The employee subsequently
                                     ployee further admitted he knew it            tendered his resignation from the
                                     was unlawful to obstruct an OIG in-           Commission.
                                     vestigation, but maintained he acted
                                     out of panic.                            •   The OIG investigated a matter in
                                                                                   which an employee had received sev-
                                    The OIG referred the employee’s per-          eral hundred access denials catego-
                                     jury and obstruction to the appropri-         rized as pornography during two time
                                     ate United States Attorney’s Ofﬁce,           periods totaling approximately 40
                                     which declined criminal prosecution.          days, many of which occurred during
                                     The employee resigned from the                duty hours. A forensic examination of
                                     Commission shortly after providing            the employee’s computer hard drive
                                     testimony to the OIG, but prior to the        performed at the OIG’s request un-




                                                                                                                              29
SEMIANNUAL REPORT TO CONGRESS             covered numerous pornographic im-             determined that the employee violated
                                          ages. The forensic analysis also dis-         Commission rules and policies, as well
                                          closed hard core pornography video            as the government-wide ethical stan-
                                          ﬁles contained on a portable thumb            dards of conduct, based on his at-
                                          drive that had been connected to the          tempts to access, and his successful
                                          employee’s Commission laptop com-             accessing of, Internet pornography
                                          puter.                                        from his government computer. The
                                                                                        OIG, therefore, recommended that
                                         The OIG requested that the employee           management take appropriate disci-
                                          appear for sworn testimony in the             plinary action, up to and including
                                          OIG’s investigation. Before that tes-         dismissal. Management’s decision on
                                          timony took place, however, the em-           disciplinary action is pending.
                                          ployee tendered his resignation and
                                          requested an adjournment of the          •   The OIG commenced an investiga-
                                          scheduled testimony. On March 14,             tion based on information showing
                                          2008, the OIG provided a report to            that a supervisor had made numerous
                                          management describing the results of          attempts to access Internet pornogra-
                                          the investigation. The OIG informed           phy resulting in access denials. This
                                          management that due to the serious            individual supervised an employee
                                          nature of the employee’s misconduct,          whom the OIG had previously inves-
                                          the OIG would have recommended                tigated for accessing Internet pornog-
                                          inappropriate disciplinary action, up         raphy, and the OIG had contacted the
                                          to and including dismissal, if the em-        supervisor during the course of the
                                          ployee had not already resigned his           prior investigation.
                                          position.
                                                                                       Forensic analysis of the supervisor’s
                                     •   Another OIG investigation disclosed           hard drive conducted at the OIG’s
                                          that an employee received almost              request revealed sexually explicit and
                                          3,000 denials classiﬁed as pornogra-          pornographic images stored on the
                                          phy during two non-consecutive                hard drive. The forensic analysis also
                                          months, and that these denials were           revealed that the supervisor had suc-
                                          received during the employee’s nor-           cessfully accessed on numerous occa-
                                          mal work hours. Forensic analysis of          sion websites containing links to ad-
                                          the employee’s Commission laptop              vertisements for sex services. While
                                          hard drive conducted at the OIG’s             the OIG investigation was pending,
                                          request revealed numerous porno-              the supervisor resigned from the
                                          graphic images. The employee ap-              Commission.
                                          peared for sworn testimony, asserted
                                          his Fifth Amendment privilege against    •   In six other matters, the OIG issued
                                          self-incrimination, and refused to an-        memorandum reports to management
                                          swer questions concerning use of his          summarizing employees’ misuse of
                                          Commission laptop and whether he              ofﬁcial time and resources to attempt
                                          had accessed or attempted to access           to access Internet pornography. The
                                          Internet pornography.                         evidence also showed that each of
                                                                                        these employees successfully accessed
                                         On March 25, 2008, the OIG issued a           either pornography or inappropriate
                                          report to management discussing the           material. In each instance, the OIG
                                          results of its investigation. The OIG         recommended that management take


                                30
SEMIANNUAL REPORT TO CONGRESS        appropriate disciplinary action. In              the employee used Commission com-
                                     response to the OIG recommenda-                  puter resources and ofﬁcial time in
                                     tions, management provided three                 connection with his private photogra-
                                     employees with written counseling                phy business. Much of this evidence
                                     memoranda. Two employees were                    was based on the employee’s own ad-
                                     reprimanded, and management re-                  missions on the record, including tes-
                                     voked the recurring telework of one of           timony that he had saved hundreds of
                                     these employees. One employee re-                photographs taken in connection with
                                     ferred resigned before disciplinary ac-          his private photography business to
                                     tion was taken.                                  ofﬁcial Commission computers. Sev-
                                                                                      eral witnesses conﬁrmed that the em-
                                Investigations of Misuse of                           ployee looked at personal photographs
                                Government Resources and Time to                      on Commission computers during
                                Operate Private Businesses                            work hours.
                                    During the period, the OIG investigated      	    The OIG investigation further uncov-
                                two allegations that Commission employees             ered evidence that the employee con-
                                had misused government time and resources             sistently used Commission e-mail to
                                to support private businesses, in violation of        exchange messages about his photog-
                                Commission policy. Both investigations found          raphy business. In addition, the OIG
                                evidence to support the allegations of misuse         investigation found evidence that the
                                of Commission resources and ofﬁcial time.             employee lacked candor on several
                                                                                      topics during his sworn OIG testi-
                                                                                      mony, including how frequently he
                                •   In one matter, the OIG investigated
                                                                                      used Commission e-mail for his pho-
                                     an allegation that an employee was
                                                                                      tography business.
                                     using Commission computer resources
                                     and ofﬁcial time to support a private
                                                                                 	    The OIG concluded that the evidence
                                     photography business. The OIG ob-
                                                                                      in the matter demonstrated serious
                                     tained and analyzed ﬁles copied from
                                                                                      violations of Commission policies and
                                     three computers used by the em-
                                                                                      the government-wide ethical standards
                                     ployee. The OIG investigator also
                                                                                      of conduct and recommended that
                                     obtained and reviewed the employee’s
                                                                                      the agency take appropriate discipli-
                                     Commission e-mails for a three-month
                                                                                      nary action. In response to the OIG
                                     period. In addition, the OIG investi-
                                                                                      report of investigation, management
                                     gator interviewed ten witnesses, sev-
                                                                                      proposed to suspend the employee for
                                     eral of whom had observed the em-
                                                                                      14 days. Management also issued
                                     ployee looking at personal photogra-
                                                                                      written instructions to the employee,
                                     phy during work hours. OIG investi-
                                                                                      directing that he delete any ﬁles re-
                                     gators also took the sworn testimony
                                                                                      lated to his private photography busi-
                                     of the subject.
                                                                                      ness from his currently-assigned
                                                                                      Commission computer and refrain
                                    The OIG issued a comprehensive re-
                                                                                      from using Commission resources or
                                     port of investigation on December 26,
                                                                                      time for his photography business.
                                     2007. The OIG investigation found
                                     that the employee had been a profes-
                                                                                 •   In the other matter, the OIG investi-
                                     sional photographer for several years
                                                                                      gated an anonymous complaint that a
                                     and disclosed signiﬁcant evidence that
                                                                                      Commission employee was misusing


                                                                                                                               31
SEMIANNUAL REPORT TO CONGRESS            ofﬁcial time and resources to sell real         warranted a referral to the Depart-
                                         estate, among other misconduct. The             ment of Justice.
                                         OIG obtained and reviewed three
                                         months of the employee’s Commis-           Investigation of Assault
                                         sion e-mails and reviewed the results      by Contract Employee
                                         of forensic analysis of the employee’s
                                         computer hard drive. The OIG also              The OIG conducted an investigation into
                                         subpoenaed the employee’s personal         an anonymous complaint of an alleged assault
                                         cell phone records for a four-month        by an agency contract employee on
                                         period. In addition, the OIG investi-      Commission premises. The complaint also
                                         gator interviewed the employee’s su-       alleged that the incident had been reported to
                                         pervisor and other witnesses.              the subject’s employer, who did nothing. The
                                                                                    complaint did not identify the victim of the
                                        The OIG investigation found that the
                                         employee had obtained her real estate      alleged assault, but indicated she worked in
                                         license and thereafter sought approval     the building.
                                         to engage in outside employment.
                                         Her supervisor had granted that ap-            During its investigation, the OIG
                                         proval based upon her representation,      interviewed the subject of the investigation, as
                                         among others, that she would not use       well as several of his managers. Based on
                                         Commission resources and time for          these interviews, the OIG determined that no
                                         that outside activity. The OIG inves-      incident like the one alleged in the anonymous
                                         tigation uncovered evidence that the       complaint had actually occurred. The OIG
                                         employee did, in fact, use Commission
                                                                                    investigation also found no evidence that the
                                         time and resources to conduct real
                                         estate business, despite her representa-   subject’s employer had been notiﬁed of the
                                         tion she would not do so. Speciﬁcally,     alleged incident.
                                         the OIG investigation found evidence
                                         that the employee had sent and re-         OTHER INQUIRIES CONDUCTED
                                         ceived e-mails pertaining to her real
                                         estate business and had visited real          During the period, the OIG also
                                         estate websites from her Commission        completed inquiries into several matters
                                         computer. Moreover, the OIG’s              brought to its attention, the most signiﬁcant of
                                         analysis of the employee’s personal        which are described below.
                                         cell phone records showed that she
                                         made or received numerous cell             •   The OIG received an anonymous al-
                                         phone calls during the work day.                legation that a newly-hired supervisor
                                                                                         had misrepresented his qualiﬁcations
                                     	   While the OIG investigation was still           for the position by claiming that he
                                         pending, the employee resigned from             had obtained a professional designa-
                                         the Commission pursuant to an                   tion he did not have. The OIG per-
                                         agreement resolving an Equal Em-                formed an inquiry into the allegation
                                         ployment Opportunity (EEO) com-                 and found that the employee’s job ap-
                                         plaint. As part of that agreement, the          plication and resume nowhere men-
                                         employee agreed not to apply for em-            tioned the credential in question.
                                         ployment with any Commission divi-
                                         sions or ofﬁces at any time in the fu-     •   The OIG conducted an inquiry into
                                         ture. The OIG investigation found no            allegations that the Commission’s
                                         evidence of criminal violations that            Freedom of Information Act (FOIA)

                                32
SEMIANNUAL REPORT TO CONGRESS        Ofﬁce had improperly replied to two        •   The OIG conducted an inquiry into a
                                     separate FOIA requests by asserting             constituent complaint forwarded by a
                                     that no responsive documents were               Senate ofﬁce that the SEC had not
                                     found. During this inquiry, the OIG             adequately addressed a problem
                                     investigator met with the FOIA staff            brought to the SEC’s attention. The
                                     who had worked on the requests and              OIG investigator reviewed the com-
                                     reviewed the ﬁles for the two requests,         plaint and met with the Commission
                                     as well as other relevant documents.            ofﬁce that handles investor com-
                                     The OIG inquiry found that in re-               plaints. The OIG investigator was
                                     sponse to one of the two requests at            informed that the SEC did not have
                                     issue, the FOIA ofﬁce had referred the          jurisdiction over the complaint, but
                                     requester to responsive information             that Commission staff had nonethe-
                                     that was publicly available. The OIG            less made a number of inquires in an
                                     found that the other request asked for          effort to assist the complainant. The
                                     data that was more than twelve years            OIG provided this information in a
                                     old. The OIG informed the com-                  reply to the Senate ofﬁce and sug-
                                     plainant of the results of its inquiry          gested that the complainant contact
                                     and recommended that he appeal the              the state and Federal ofﬁces with ju-
                                     responses, to the extent he was not             risdiction over the matter.
                                     satisﬁed.
                                                                                PENDING INVESTIGATIONS
                                •   The OIG reviewed complaints from           AND INQUIRIES
                                     foreign investors forwarding docu-
                                     ments that appeared to fraudulently        •   The OIG is continuing its re-opened
                                     use the SEC’s name and seal. The                investigation into allegations made by
                                     OIG investigator provided the docu-             a former Commission attorney that
                                     ments to the Federal Bureau of Inves-           managers gave favorable treatment to
                                     tigation, which agreed to follow up             a prominent individual by not taking
                                     with an intelligence report. The OIG            his testimony in an insider trading in-
                                     investigator also forwarded the incom-          vestigation and then ﬁred the attorney
                                     ing complaints to the appropriate               for his complaints about the favorable
                                     Commission ofﬁces and requested                 treatment. These allegations were the
                                     that they advise the complainants as            subject of an August 2007 ﬁnal report
                                     to the authenticity of the documents.           of the Senate Finance and Judiciary
                                                                                     Committees. The Inspector General
                                •   The OIG received a complaint that               has met with Senate Committee staff
                                     an individual’s social security number          and has personally reviewed the entire
                                     was publicly available in an SEC ﬁling          OIG investigative ﬁle in the matter, as
                                     found on the Internet. The OIG in-              well as numerous interview transcripts
                                     vestigator determined that the ﬁling            obtained from the Senate Commit-
                                     containing the individual’s social secu-        tees. To date in this re-opened inves-
                                     rity number was not located on the              tigation, 33 witnesses have testiﬁed or
                                     SEC’s website, but rather on a website          been interviewed. The Inspector
                                     operated by a private company. The              General plans to take additional tes-
                                     OIG made several attempts to contact            timony and ﬁnalize the investigation
                                     the company to request the removal of           during the next reporting period.
                                     the individual’s social security number
                                     from the ﬁling.                            •   In a related matter, the OIG is con-
                                                                                     ducting a separate investigation into
                                                                                     an allegation that a Commission em-
                                                                                                                               33
SEMIANNUAL REPORT TO CONGRESS             ployee made a false statement to the             sionally in his dealings with the local
                                          OIG in the course of its initial investi-        authorities. The OIG plans to take
                                          gation of the allegations made by the            the subject’s testimony on the record.
                                          former Commission attorney dis-
                                          cussed above. The alleged false             •   The OIG has several investigations
                                          statement concerned the disposition of           and inquiries underway into employ-
                                          the former attorney’s original em-               ees’ misuse of Commission resources
                                          ployee personnel folder after he was             to support private businesses The
                                          terminated and whether copies were               OIG is also reviewing whether the
                                          maintained. During the reporting                 employees misused their position in
                                          period, the Inspector General took the           connection with these private activi-
                                          testimony under oath of eight current            ties. The OIG plans to review em-
                                          and former Commission employees,                 ployee e-mails and take testimony
                                          including the complainant. The In-               from the subjects of the investigations.
                                          spector General plans to take addi-
                                          tional testimony and ﬁnalize this in-       •   The OIG continues to investigate a
                                          vestigation during the next reporting            matter involving the use of Commis-
                                          period.                                          sion computer resources to access
                                                                                           Internet pornography. The OIG in-
                                     •   The OIG has begun an investigation               vestigator has reviewed Internet logs
                                          into an allegation that an employee              showing thousands of attempted and
                                          had a high volume of personal securi-            successful accesses of Internet por-
                                          ties trading, raising suspicions that the        nography from the employee’s Com-
                                          employee may have engaged in in-                 mission computer. In addition, foren-
                                          sider trading and violated the Com-              sic analysis of the employee’s com-
                                          mission’s rules governing employee               puter hard drive conducted at the
                                          securities transactions. The OIG has             OIG’s request has revealed numerous
                                          subpoenaed the employee’s brokerage              pornographic images stored on the
                                          records and obtained numerous other              drive. The employee has declined to
                                          records pertaining to the employee’s             testify in the OIG’s investigation, in-
                                          securities transactions. The OIG is in           voking the Fifth Amendment privilege
                                          the process of conducting a compre-              against self-incrimination. The OIG
                                          hensive review and analysis of this              is continuing to develop the evidence
                                          information. The OIG has also ob-                in this matter.
                                          tained the employee’s Commission e-
                                          mails for a substantial time period and     •   In an ongoing investigation, the OIG
                                          plans to look for any evidence that the          is reviewing whether a Commission
                                          employee engaged in insider trading.             employee violated criminal conﬂict of
                                                                                           interest statutes or ethics regulations
                                     •   The OIG continues to investigate al-             in connection with a contract the em-
                                          legations of misconduct by a Com-                ployee was responsible for monitoring.
                                          mission attorney in connection with              The OIG is reviewing the employee’s
                                          his private representation of a witness          e-mails and is having forensic analysis
                                          in an investigation conducted by local           performed of the employee’s com-
                                          authorities. Speciﬁcally, the OIG is             puter hard drive. The OIG investiga-
                                          determining whether the attorney                 tor is fully exploring the nature of the
                                          misused Commission resources, ofﬁ-               relationship between the employee
                                          cial time and his position in the course         and the president of the contractor.
                                          of the private representation, and               The OIG plans to take the testimony
                                          whether the attorney acted unprofes-
                                34
SEMIANNUAL REPORT TO CONGRESS        of these individuals, as well as several        manager has misused Commission
                                     other relevant witnesses.                       time, resources and her position. The
                                                                                     OIG investigator has undertaken a
                                •   The OIG has a pending investigation             review of several months of the em-
                                     into an allegation that a Commission            ployee’s Commission e-mails, as well
                                     supervisory attorney participated in            as her Internet access log. The inves-
                                     an investigation notwithstanding a              tigator has also contacted the outside
                                     personal conﬂict of interest that re-           ﬁrm with whom the manager alleg-
                                     quired his recusal from the investiga-          edly misused her position. The OIG
                                     tion. The OIG is also reviewing alle-           plans to take testimony of the man-
                                     gations that various misconduct oc-             ager, her supervisors and several col-
                                     curred during the course of the inves-          leagues.
                                     tigation and subsequent litigation.
                                     The OIG plans to take testimony            •   The OIG has two ongoing inquiries
                                     from the attorneys who worked on the            related to the Commission’s actions
                                     matter.                                         concerning naked short selling, an
                                                                                     issue about which the OIG has re-
                                •   The OIG continues to investigate an             ceived a multitude of complaints. In
                                     anonymous allegation that managers              one of these inquiries, the OIG re-
                                     in a Commission regional ofﬁce un-              viewed and analyzed the complaints
                                     ethically instructed staff to close out         received and met with one of the
                                     older cases by making false certiﬁca-           complainants, who provided a de-
                                     tions. In the course of investigating           tailed brieﬁng on the topic. The
                                     that anonymous allegation, the OIG              OIG’s Ofﬁce of Audits and Inspec-
                                     received additional allegations that            tions is considering possible audit top-
                                     regional ofﬁce management failed to             ics in this area, and the OIG’s investi-
                                     actively pursue enforcement matters,            gative unit is continuing to review the
                                     particularly those involving invest-            issue for possible additional investiga-
                                     ment management issues. The OIG                 tion. In the other inquiry, the OIG is
                                     has conducted numerous conﬁdential              reviewing allegations that a Commis-
                                     interviews of staff members, as well            sion manager committed perjury in a
                                     as on-the-record sworn testimony of             letter to a Senator that discussed na-
                                     several supervisors and a staff mem-            ked short selling in the context of a
                                     ber.                                            particular enforcement matter.

                                •   The OIG is investigating an allega-        •   The OIG is continuing an inquiry
                                     tion that a Commission employee                 into various allegations of misconduct
                                     may have used Commission resources              on the part of Commission staff and
                                     to harass outside individuals. The              a court-appointed receiver that were
                                     OIG is also looking into whether the            made by the subject of a Commission
                                     employee misused Commission data-               enforcement proceeding and his at-
                                     bases to obtain information about               torney. The OIG met with the com-
                                     these outside individuals. The OIG              plainant and his attorney, who pro-
                                     plans to interview or take testimony            vided voluminous materials. The
                                     from the complainant, other witnesses           OIG is continuing to review these ma-
                                     and the subject of the investigation.           terials and to gather additional rele-
                                                                                     vant information with a view towards
                                •   The OIG is investigating an anony-              determining what further actions are
                                     mous allegation that a Commission

                                                                                                                                35
SEMIANNUAL REPORT TO CONGRESS             appropriate given the OIG’s jurisdic-     •   The OIG also has an open inquiry
                                          tion.                                          into a complaint that a Commission-
                                                                                         issued Blackberry was sold on eBay.
                                     •   The OIG is also continuing an in-              The OIG investigator retrieved the
                                          quiry into a complaint that a Com-             Blackberry from the person who pur-
                                          mission senior attorney failed to con-         chased it on eBay. Forensic analysis
                                          sider seriously the complainant’s claim        performed at the OIG’s request con-
                                          of perjury in a self-regulatory organi-        ﬁrmed that the Blackberry had be-
                                          zation (SRO) arbitration proceeding            longed to the Commission, but that it
                                          that took place approximately ten              was an older model that was defective
                                          years ago. The OIG has performed               and turned in by the user for a re-
                                          substantial work in the matter, includ-        placement. The OIG plans to con-
                                          ing contacting the SRO and obtaining           duct additional investigation into what
                                          copies of the relevant records that are        happened to the Blackberry after the
                                          still available and reviewing the SEC’s        user turned it in.
                                          ﬁles in the matter.
                                                                                    •   The OIG has a pending inquiry into
                                     •   In connection with an open inquiry,            allegations that Commission staff
                                          the OIG reviewed allegations of con-           failed to act in response to speciﬁc
                                          ﬂict of interest, conspiracy and false         complaints of securities laws viola-
                                          statements in connection with a                tions in connection with two different
                                          Commission enforcement matter.                 stocks. The OIG is in the process of
                                          The OIG has determined to focus its            gathering the relevant correspondence
                                          inquiry on an allegation that a former         and will review it to determine
                                          Commission staff attorney had a con-           whether Commission staff acted im-
                                          ﬂict of interest that was not disclosed        properly in response to the com-
                                          in the enforcement proceeding.                 plaints.




                                36
U.S. Securities and Exchange Commission

                                                                     SEMIANNUAL
                                                Ofﬁce of
                                                                     REPORT TO
                                               Inspector
                                                General
                                                                     CONGRESS
                                          REVIEW OF LEGISLATION
                                          AND REGULATIONS
                                               During the reporting period, the OIG       e.g., the statute authorizing agencies to
                                          reviewed legislation and proposed and ﬁnal      establish student loan repayment programs, 5
                                          rules relating to the programs and operations   U.S.C. § 5379.
                                          of the Commission, pursuant to Section 4(a)
                                          (2) of the Inspector General Act. As is             The OIG also tracked legislation and
                                          discussed in detail in the Section on Advice    regulations that would impact the Inspector
                                          and Assistance provided to the Agency, the      General Community, in coordination with the
                                          OIG provided extensive comments on              Legislation Committee of the President’s
                                          revisions to the rules governing employee and   Council on Integrity and Efﬁciency and the
                                          contractor use of Commission information        Executive Council on Integrity and Efﬁciency.
                                          technology resources, SECR 24-04.A01,           In particular, the OIG reviewed and
                                          Rules of the Road. The OIG also provided        implemented procedures to meet new
                                          several sets of comments and suggestions on a   requirements imposed on Inspectors General
                                          proposed new agency policy setting forth the    by the FY 2008 Consolidated Appropriations
                                          rules concerning employee performance           Act, including provisions pertaining to
                                          management.                                     Inspector General websites. The OIG also
                                                                                          provided comments to the Legislation
                                              In addition, the OIG reviewed statutes,     Committee in connection with a legislative
                                          regulations and other Federal guidelines and    proposal to amend the Paperwork Reduction
                                          requirements, and their impact on               Act, 44 U.S.C. § 3501 et seq., to create a
                                          Commission programs and operations, within      general exception for Inspector General
                                          the context of the audits, inspections and      activities.
                                          other reviews conducted during the period,




                                                                                                                                    37
38
U.S. Securities and Exchange Commission

                                                             SEMIANNUAL
                                             Ofﬁce of
                                                             REPORT TO
                                            Inspector
                                             General
                                                             CONGRESS

                                                        STATUS OF RECOMMENDATIONS WITH
                                                            NO MANAGEMENT DECISIONS
                                           Management decisions have been made on all audit reports issued
                                                   before the beginning of this reporting period.


                                                         REVISED MANAGEMENT DECISIONS

                                               No management decisions were revised during the period.


                                            AGREEMENT WITH SIGNIFICANT MANAGEMENT DECISIONS

                                          The Ofﬁce of Inspector General agrees with all signiﬁcant management
                                                      decisions regarding audit recommendations.



                                                 INSTANCES WHERE INFORMATION WAS REFUSED

                                                        During this reporting period, there were no
                                                        instances where information was refused.




                                                                                                                 39
40
SEMIANNUAL REPORT TO CONGRESS
                                Table 1
                                List of Reports: Audits and Inspections
                                Audit / Inspec-
                                                                       Title                         Date Issued
                                 tion Number

                                     432           Oversight of Receivers and Distribution Agents    Dec 12, 2007



                                     434                    Background Investigations                Mar 28, 2008



                                     436          Usefulness of Investment Management’s Website      Mar 28, 2008



                                     438          Self-Regulatory Organization Rule Filing Process   Mar 31, 2008



                                     439                      Student Loan Program                   Mar 27, 2008



                                     441                      Controls Over Laptops                  Mar 31, 2008



                                     442                Enterprise Architecture Assessment           Mar 31, 2008




                                                                                                                41
42
SEMIANNUAL REPORT TO CONGRESS
                                Table 2
                                Reports Issued with Costs Questioned
                                or Funds Put to Better Use
                                (including disallowed costs)


                                                                                                Number of
                                                                                                             Value
                                                                                                 Reports
                                A. REPORTS ISSUED PRIOR TO THIS PERIOD

                                  For which no management decision had been
                                      made on any issue                                                 0            0
                                  For which some decisions had been made on some issues                 0            0


                                B. REPORTS ISSUED DURING THIS PERIOD

                                                                                                        1   $129,336.00
                                   Audit of SEC Student Loan Program


                                TOTAL OF CATEGORIES A AND B                                             1   $129,336.00


                                C. For which final management decisions were made during this
                                        period                                                          1   $129,336.00


                                D. For which no management decisions were made during this
                                        period                                                          0            0


                                E. For which management decisions were made on some issues
                                                                                                        0            0
                                       during this period

                                TOTAL OF CATEGORIES C, D AND E                                          1   $129,336.00




                                                                                                                     43
44
SEMIANNUAL REPORT TO CONGRESS
                                Table 3
                                REPORTS WITH RECOMMENDATIONS
                                ON WHICH CORRECTIVE ACTION HAS
                                NOT BEEN COMPLETED
                                                RECOMMENDATIONS OPEN 180 DAYS OR MORE
                                   Audit/Inspection #         Issue Date              Summary of Recommendation
                                        and Title

                                320 General Computer          12/26/00     Document the process of adding/deleting users of
                                Controls                                   existing applications.

                                337 IT Project Management     1/24/02      Develop a System Development Life Cycle checklist and
                                                                           procedures.
                                                                           Standardize the contracting language for Information
                                                                           Technology (IT) project management requirements.
                                365 IT Capital Investment     3/29/04      Publish a charter for the Information Officers Council.
                                Decision-Making Follow-Up
                                377 Lost and Stolen           3/31/04      Review IT investment and security issues.
                                Securities Program
                                393 Software Management       3/24/05      Enhance manual controls for software management.
                                                                           Implement preventive controls for software management.
                                                                           Develop written policies and procedures for software
                                                                           management.
                                                                           Perform periodic inventories of software and hardware.

                                                                           Develop procedures for software acquired by contractors.

                                395 Integrity Program:        5/31/05      Complete the development of an employee manual.
                                Inspection of Field Offices

                                402 Office of the Secretary   9/20/05      Develop a regulation involving updating and posting
                                                                           public company forms on the Commission's website.

                                406 Federal Information       9/28/05      Conduct Privacy Impact Assessments for all Privacy Act
                                Security Management Act                    systems.
                                2005
                                412 Oversight of the          9/28/06      Review the Public Company Accounting Oversight
                                PCAOB                                      Board’s (PCAOB’s) disaster contingency plan.
                                                                           Develop procedures for several PCAOB oversight issues.
                                                                           Consider delegations of authority.
                                422 Backlog of FOIA           3/30/07      Develop a tracking system for comment letter postings.
                                Requests for Comment
                                Letters


                                                                                                                                     45
SEMIANNUAL REPORT TO CONGRESS
                                        Audit/Inspection #        Issue Date              Summary of Recommendation
                                             and Title

                                     425 Federal Information      9/18/06      Revaluate the major system inventory.
                                     Security Management Act
                                     2006

                                                                               Improve the identification and documentation of systems.
                                                                               Conduct Privacy Impact Assessments.
                                     430 Contract Ratifications   9/25/07      Update Commission regulations (i.e., SECR 10-2) to
                                                                               incorporate requirements.
                                                                               Establish procedures to review ratification requirements
                                                                               submitted by the Office of Administrative Services.
                                                                               Reevaluate procurement in the regional offices.
                                                                               Develop procurement procedures and provide training for
                                                                               the regional offices.
                                                                               Evaluate using debit cards for the regional offices.
                                                                               Finalize expert witness guidelines.
                                                                               Determine necessary training in expert witness contracts.
                                                                               Consider requiring appointment letters for Inspection and
                                                                               Acceptance officials and Point of Contact officials
                                                                               (normally trial attorneys).
                                                                               Add disciplinary language to ratification guidance.

                                                                               Develop procedures to compile contract ratification data
                                                                               semiannually.

                                     421 Investment Company       9/25/07      Develop outcome-based performance indicators for
                                     Disclosure Initiatives                    disclosure initiatives.
                                     423 Enforcement              2/8/07       Develop procedures for performance appraisal steps.
                                     Performance Management
                                                                               Develop procedures for certification of mid-year reviews.
                                                                               Develop procedures for rating employees per
                                                                               Commission policy.
                                                                               Provide guidance and training to Enforcement
                                                                               supervisors on rating problem employees.
                                                                               Develop procedures for Senior Officer appraisals.
                                                                               Update guidance on retention of performance
                                                                               documentation.
                                                                               Implement procedures to retain performance
                                                                               documentation for appropriate time.
                                                                               Update performance management guidance to address
                                                                               various situations (i.e., involving probationary, newly
                                                                               hired, reassigned, or departed staff) and provide training.



                                46
SEMIANNUAL REPORT TO CONGRESS      Audit/Inspection #          Issue Date              Summary of Recommendation
                                        and Title

                                428 Electronic Documents       7/25/07      Issue program guidance.
                                Program
                                                                            Sample data loading to determine completeness and
                                                                            accuracy.
                                                                            Ensure that a contractor corrects reported exceptions.
                                                                            Require a contractor to sample paper documents from
                                                                            headquarters.
                                                                            Develop written procedures for loading data work from
                                                                            the regional offices.
                                                                            Provide regional offices with additional Concordance
                                                                            training and expertise.
                                                                            Consider establishing a larger forensics lab.
                                                                            Research connectivity problems with Concordance.
                                                                            Issue guidance on the preservation of electronic records.
                                                                            Decrease and track imaging turnaround times.
                                                                            Address contractor performance issues.
                                                                            Perform background investigations for thirteen identified
                                                                            contract employees.
                                                                            Designate task monitor or program manager
                                416 Full Disclosure            3/28/07      Consider posting No-Action letters involving shareholder
                                Program's Staff Interpretive                proposals on the Commission's website.
                                Guidance
                                                                            Consider reviewing the Performance and Accountability
                                                                            Report regarding reporting interpretive guidance data.
                                                                            Consider revising the timeliness measure in the
                                                                            Chairman's internal management report (i.e., the
                                                                            Dashboard) to make it consistent with internal goals.
                                                                            Consider improvements to the Division of Corporation
                                                                            Finance’s interpretive guidance databases.
                                                                            Expand the checklist used by Office of Chief Accountant
                                                                            (OCA) to ensure compliance with procedures.
                                                                            Modify OCA's procedures to formalize several
                                                                            procedures.
                                M27 NRSI Password              1/29/03      Streamline and automate the user access process for IT
                                Management                                  systems.




                                                                                                                                        47
48
SEMIANNUAL REPORT TO CONGRESS   Table 4
                                Summary of Investigative Activity

                                                                 CASES                     NUMBER


                                      Cases Open as of 10/1/07                               16
                                      Cases Opened during 10/1/07 - 3/31/08                  13
                                      Cases Closed during 10/1/07 - 3/31/08                  15
                                      Total Open Cases as of 3/31/08                         14
                                      Referrals to Department of Justice for Prosecution     7
                                      Prosecutions                                           0
                                      Convictions                                            0
                                      Non-Prosecution Agreements                             1
                                      Referrals to Agency for Disciplinary Action            8


                                                      PRELIMINARY INQUIRIES                NUMBER


                                      Inquiries Open as of 10/1/07                           3
                                      Inquiries Opened during 10/1/07-3/31/08                27
                                      Inquiries Closed during 10/1/07 - 3/31/08              19
                                      Total Open Inquiries as of 3/31/08                     11
                                      Referrals to Agency for Disciplinary Action            6
                                      Referrals to Other Agencies                            2


                                                       DISCIPLINARY ACTIONS                NUMBER


                                      Removals (Including Resignations)                      7
                                      Suspensions                                            1
                                      Reprimands                                             2
                                      Warnings/Other Actions                                 5
                                                                                                    49
50
SEMIANNUAL REPORT TO CONGRESS   Table 5
                                Summary of Complaints Received

                                                                    DESCRIPTION                                           NUMBER


                                Complaints Received                                                                           76*

                                Complaints on which a Decision was made                                                       74

                                Complaints awaiting Disposition                                                                2

                                Resulting in Investigations                                                                   12

                                Resulting in Inquiries                                                                        28**

                                Referred to OIG Office of Audits and Inspections                                               2

                                Referred to Agency Management/Other Agency Components                                         11

                                Referred to Other Agencies                                                                     1

                                Included in Ongoing Investigations or Inquiries                                                5

                                Response Sent/Additional Information Requested                                                 4

                                No Action Needed                                                                              13



                                * Does not include complaints that were clearly misdirected and forwarded elsewhere without
                                  analysis

                                ** A few complaints involved similar issues and were consolidated into the same inquiry




                                                                                                                                     51
52
SEMIANNUAL REPORT TO CONGRESS   Table 6
                                References to Reporting Requirements
                                of the Inspector General Act

                                 The Inspector General Act of 1978, as amended, specifies reporting requirements for
                                 semiannual reports to Congress. The requirements are listed below and indexed to the
                                 applicable pages.



                                                       INSPECTOR GENERAL ACT REPORTING REQUIREMENT                    PAGES
                                  Section 4(a)(2)   Review of Legislation and Regulations                              37

                                  Section 5(a)(1)   Significant Problems, Abuses, and Deficiencies                     9-33

                                  Section 5(a)(2)   Recommendations for Corrective Action                              9-33

                                  Section 5(a)(3)   Prior Recommendations Not Yet Implemented                         45-47

                                  Section 5(a)(4)   Matters Referred to Prosecutive Authorities                       24-33,
                                                                                                                        49
                                  Section 5(a)(5)   Summary of Instances Where Information Was Unreasonably            39
                                                    Refused or Not Provided


                                  Section 5(a)(6)   List of OIG Audit/Inspection Reports Issued During the Period      41

                                  Section 5(a)(7)   Summary of Significant Reports Issued During the Period           13-33

                                  Section 5(a)(8)   Statistical Table on Management Decisions with Questioned Costs    43

                                  Section 5(a)(9)   Statistical Table on Management Decisions on Recommendations       43
                                                    That Funds Be Put To Better Use


                                  Section 5(a)(10) Summary of Each Audit Over Six Months Old for Which No              39
                                                   Management Decision Has Been Made


                                  Section 5(a)(11) Significant Revised Management Decisions                            39

                                  Section 5(a)(12) Significant Management Decisions with Which the Inspector           39
                                                   General Disagreed




                                                                                                                               53
54
   Help ensure the integrity of SEC operations by reporting to the OIG suspected fraud,
waste or abuse in SEC programs or operations, and SEC staff or contractor misconduct by
contacting the OIG.

   Call:
   Hotline	 	        (877) 442-0854
   Main Ofﬁce	       (202) 551-6061

   Web-Based Hotline Complaint Form:
   www.reportlineweb.com/sec_oig

   Fax:	      	      (202) 772-9265

   Write:
   Ofﬁce of Inspector General
   U.S. Securities and Exchange Commission
   100 F Street, N.E.
   Washington, D.C. 20549-2736

   Email:
   oig@sec.gov


                     Information received is held in conﬁdence upon request.
       While the OIG encourages complainants to provide information on how they may be
       contacted for additional information, anonymous complaints are also accepted.




                                                                                          55
U.S. Securities
and Exchange
 Commission




       Additional copies of this report may be obtained by contacting the
                 Ofﬁce of Inspector General at (202) 551-6061.  

          The report is also available on the Inspector General's website at
                         http://www.sec.gov/about/oig.shtml.



     56
